<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 116-75]

                                 HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2021

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

          SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES HEARING

                                   ON

                     THE FISCAL YEAR 2021 ARMY AND

           MARINE CORPS GROUND SYSTEMS MODERNIZATION PROGRAMS

                               __________

                              HEARING HELD
                             MARCH 5, 2020

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-602 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------

  


              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                 DONALD NORCROSS, New Jersey, Chairman

JAMES R. LANGEVIN, Rhode Island      VICKY HARTZLER, Missouri
JOE COURTNEY, Connecticut            PAUL COOK, California
RUBEN GALLEGO, Arizona               MATT GAETZ, Florida
SALUD O. CARBAJAL, California        DON BACON, Nebraska
ANTHONY G. BROWN, Maryland           JIM BANKS, Indiana
FILEMON VELA, Texas                  PAUL MITCHELL, Michigan
XOCHITL TORRES SMALL, New Mexico,    MICHAEL R. TURNER, Ohio
    Vice Chair                       DOUG LAMBORN, Colorado
MIKIE SHERRILL, New Jersey           ROBERT J. WITTMAN, Virginia
JARED F. GOLDEN, Maine
ANTHONY BRINDISI, New York
              Elizabeth Griffin, Professional Staff Member
               Jesse Tolleson, Professional Staff Member
                         Caroline Kehrli, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hartzler, Hon. Vicky, a Representative from Missouri, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     2
Norcross, Hon. Donald, a Representative from New Jersey, 
  Chairman, Subcommittee on Tactical Air and Land Forces.........     1

                               WITNESSES

Geurts, Hon. James F., Assistant Secretary of the Navy for 
  Research, Development, and Acquisition, Department of the Navy; 
  accompanied by LtGen Eric M. Smith, USMC, Commanding General, 
  Marine Corps Combat Development Command, and Deputy Commandant 
  for Combat Development and Integration, U.S. Marine Corps......     8
Jette, Hon. Bruce, Ph.D., Assistant Secretary of the Army for 
  Acquisition, Logistics, and Technology, Department of the Army.     4
Murray, GEN John M., USA, Commanding General, Army Futures 
  Command........................................................     5
Pasquarette, LTG James F., USA, Army Deputy Chief of Staff, G-8, 
  Department of the Army.........................................     6

                                
                                APPENDIX

Prepared Statements:

    Geurts, Hon. James F., joint with LtGen Eric M. Smith........    59
    Jette, Hon. Bruce, Ph.D., joint with GEN John M. Murray and 
      LTG James F. Pasquarette...................................    44
    Norcross, Hon. Donald........................................    43

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Gallego..................................................    78
    Mrs. Hartzler................................................    75
    Mr. Lamborn..................................................    75
    Mr. Mitchell.................................................    78
    
    
.    
THE FISCAL YEAR 2021 ARMY AND MARINE CORPS GROUND SYSTEMS MODERNIZATION 
                                PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                           Washington, DC, Thursday, March 5, 2020.
    The subcommittee met, pursuant to call, at 9:30 a.m., in 
room 2212, Rayburn House Office Building, Hon. Donald Norcross 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. DONALD NORCROSS, A REPRESENTATIVE 
  FROM NEW JERSEY, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND 
                          LAND FORCES

    Mr. Norcross. Good morning. We will come to order.
    The Tactical Air and Land Forces Subcommittee meets today 
to review the Army and Marine Corps ground modernization 
programs and fiscal year 2021 budget request.
    First off, I would like to thank our witnesses for being 
with us today. We certainly appreciate the work that went into 
this year's budget request to Congress.
    Let me tell you up front, this committee is especially--we 
all are frustrated at the administration's disregard for 
congressional authority to make appropriations and the faithful 
execution of those laws. Attempts to reprogram funds as 
authorized by Congress for Army programs such as the National 
Guard and Reserve Equipment, Tactical Wheeled Vehicles, without 
prior approval and contrary to our disapproval undermines this 
relationship. I can't underscore that enough.
    Our ability, together, to manage risk in the most realistic 
and timely manner, this should be--this should worry not only 
us but you as the witnesses that we continue this.
    And as Chairman Smith said just the other day, the National 
Defense Strategy does not include the southern border wall.
    As we highlighted earlier this week at the full committee 
Army posture hearing and also last week at the Navy and Marine 
Corps posture hearing, the committee is eager to hear further 
details from today's witnesses on how the services are 
evaluating tradeoffs--acceptable risk between investment 
priorities, current needs, and the industrial base stability.
    The Army made significant changes and tough choices in the 
fiscal year 2020 request to fund future capabilities without--
without--an increase in their budget top line during the 
``night court'' process. We understand the Marine Corps is also 
evaluating programs line by line in an effort to reallocate 
funds and modernize priorities.
    We understand that the goal is achieving a modernized and 
lethal ground force that can match the strength of peer-to-peer 
and near-peer competitors by 2028. However, once we lose our 
ability to build and maintain weapons systems, it can be nearly 
impossible to get that back. We have a duty to examine with 
great scrutiny those choices we have made both for today and 
for the future to ensure we don't get it wrong.
    Our subcommittee intends to examine the rationale behind 
these choices with the senior leadership here today.
    I would like to welcome the distinguished panel of 
witnesses: first, Dr. Bruce Jette, Assistant Secretary of the 
Army for Acquisition, Logistics, and Technology--good to have 
you back; General John Murray, Commanding General, Army Futures 
Command--good to see you again; Lieutenant General James 
Pasquarette, Army Deputy Chief of Staff, G-8; Mr. James Geurts, 
the Assistant Secretary of the Navy for Research, Development, 
and Acquisition, who is on quite a roll this week; Lieutenant 
General Eric Smith, Commanding General, Marine Corps Combat 
Development Command and Deputy Commandant for Combat 
Development and Integration.
    We look forward to your testimony and discussing the topics 
that we brought up earlier this morning and ones that you have 
been hearing about across the spectrum.
    Before we begin, I would like to turn to my ranking member, 
Mrs. Hartzler, for any comments she would like to make.
    [The prepared statement of Mr. Norcross can be found in the 
Appendix on page 43.]

    STATEMENT OF HON. VICKY HARTZLER, A REPRESENTATIVE FROM 
MISSOURI, RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mrs. Hartzler. Yes. Thank you, Mr. Chairman. And I would 
like to echo your concerns with some of the reprogramming that 
we have seen taking place and hope that we can work that out to 
make sure that our men and women in uniform have what they need 
and Congress still has the ability to prioritize those assets.
    But I want to thank each of our witnesses today. Thank you 
for your service and all that you do for our soldiers and our 
Marines.
    And we have a lot to cover here in a relatively short 
amount of time. And this distinguished panel of witnesses, I 
look forward to having your expertise in this healthy 
discussion.
    This budget request for ground system modernization is 
essentially flat when compared to last year's levels. General 
McConville, the Chief of Staff of the Army, stated that, quote, 
``the Army's budget request represents a downturn in real 
purchasing power from fiscal year 2020, and that progress is a 
risk,'' unquote.
    The Army has realigned approximately $2.4 billion in fiscal 
year 2021. These funds were taken from Army-identified lower-
priority programs by eliminating or reducing approximately 80 
programs across the Future Years Defense Program to better 
invest in the Army's ``big six'' modernization priorities.
    Programs such as the Joint Light Tactical Vehicle, the 
Joint Assault Bridge, and munitions had quantities reduced, 
while programs such as the Advanced Precision Kill Weapon 
System were eliminated.
    The Marine Corps is also in the process of a major redesign 
effort. And the Commandant, General Berger, has stated that, 
quote, ``we will divest of legacy defense programs and force 
structure that support legacy capabilities,'' end quote.
    So I fully recognize the importance of prioritizing 
modernization efforts necessary for great power competition 
that aligns with the National Defense Strategy, especially when 
budgets are flat with no real growth. I appreciate the Army's 
efforts in finding savings through reform and making these 
difficult choices and trades.
    However, we need to better understand the near-term 
strategic and operational risks that may result. I look forward 
to working together to find that right balance between current 
readiness and future modernization.
    So, given this focus on next-generation capabilities, I 
expect the witnesses to discuss how they are balancing 
investments in capabilities for the future fight while at the 
same time upgrading legacy platforms for current threats and 
improved tactical readiness.
    Regarding Army modernization, the budget contains $10.6 
billion for 31 efforts being worked by the 8 cross-functional 
teams to address the Army's top 6 modernization priorities. 
This is about a 26 percent increase over fiscal year 2020 
levels.
    I am sure our witnesses will touch on most of these 
programs today. And I am interested in hearing more about the 
status of the Optionally Manned Fighting Vehicle, Indirect Fire 
Protection Capability, the Next Generation Squad Weapon, and 
Long Range Precision Fires.
    Regarding Marine Corps modernization, a full-rate 
production decision is planned for the Amphibious Combat 
Vehicle later this year, and I would like the witnesses to 
update us on this program and discuss any challenges that could 
be associated with a production ramp-up.
    Finally, I want to stress the importance of jointness 
between the Army and the Marine Corps. I would like our 
witnesses to discuss how they are communicating and 
coordinating on critical modernization programs that could 
address similar operational requirements, such as body armor, 
Long Range Precision Fires, and next-generation small arms 
weapons.
    So I thank the chairman for organizing this important 
hearing, and I yield back.
    Mr. Norcross. Thank you.
    I understand each of the Army witnesses will provide short 
opening remarks, starting with Dr. Jette, followed by General 
Murray and General Pasquarette.
    Then, Mr. Geurts, you will do it for the Marine Corps.
    With that, without objection, the full prepared statements 
will be in today's hearing record.
    Hearing none, so ordered.
    Mr. Jette, welcome--or Dr. Jette. Forgive me.

 STATEMENT OF HON. BRUCE JETTE, PH.D., ASSISTANT SECRETARY OF 
THE ARMY FOR ACQUISITION, LOGISTICS, AND TECHNOLOGY, DEPARTMENT 
                          OF THE ARMY

    Secretary Jette. Chairman Norcross, Ranking Member 
Hartzler, and distinguished members of the Subcommittee on 
Tactical Air and Land Forces, good morning. Thank you for your 
invitation to discuss the Army ground modernization program and 
the resources requested in the President's budget for fiscal 
year 2021.
    I am pleased to be joined by my Army colleagues, General 
Murray and Lieutenant General Pasquarette, as well as our Navy 
and Marine Corps counterparts. We appreciate your making our 
written statement a part of today's record.
    Mr. Chairman, the Army is nearly 2 years into the most 
transformational change in modernization in the last four 
decades. We recognize the need to rapidly and persistently 
modernize our forces to stay ahead of technological change and 
either reclaim or strengthen our advantage over adversaries. We 
are committed to getting the right equipment into the hands of 
the soldier at the right time.
    There have been challenges, but I am happy to report to you 
that we confront those challenges as one team, together with 
unmatched collective experience, close collaboration, and 
synchronized unity of effort. Our soldiers deserve no less.
    Because of this close collaboration, the Army modernization 
enterprise is gaining momentum: greater speed, efficiency, and 
effectiveness as we focus on delivering the capability outlined 
in the Army's modernization priorities.
    We are making significant progress. There are many reasons 
why, Mr. Chairman, but chief among them is the unique 
relationship between the cross-functional teams of the Army 
Futures Command and our program executive offices. Together, 
they are bringing system concepts and designs to life. 
Together, they are aligning requirements development and 
acquisition expertise with representatives from testing, 
logistics, science and technology, and other important Army 
communities. Again, our soldiers deserve no less.
    We are making significant progress in our reform efforts as 
well. The Army continues to implement the initiatives granted 
by Congress in order to streamline and gain those efficiencies 
in the acquisition process.
    Let me highlight just a few.
    Middle-tier acquisition [MTA] authority, section 804, 
allows us to rapidly prototype and accelerate select efforts 
within the Army's modernization priorities and enable soldier 
feedback for further refinement of those requirements. 
Currently, under MTA, the Army has 11 rapid prototyping efforts 
and 1 rapid fielding effort.
    Other transaction authority allows the Army to attract 
small companies and nontraditional businesses, a known source 
of technological innovation. In fiscal year 2019, the Army 
awarded 830 agreements, valued at roughly $5 billion.
    Additionally, to streamline acquisition and deliver 
results, one of my first actions upon entering this office was 
to delegate milestone decision authority of acquisition 
category 2, 3, and 4 programs to our program executive officers 
and, when they felt appropriate, level 3 and 4 below them. This 
alone has contributed greatly to efficiency and effectiveness 
within our acquisition community.
    The Army ASA(ALT) [Assistant Secretary of the Army for 
Acquisition, Logistics and Technology], my office, in 
particular, has reviewed all of our policies to ensure that 
they support sound business planning and incentivize 
partnerships with industry.
    Our approach to intellectual property [IP], for example, is 
designed to make us a savvier partner by stressing early 
planning for IP requirements, requiring tailored IP strategy, 
ensuring negotiations of customer licenses and vendors early in 
the process, and encouraging open communications with industry 
throughout.
    We also have established a unified policy on advanced 
manufacturing to achieve a strategic investment by both Army 
and industry as well as the systemic adoption of additive 
manufacturing throughout the acquisition life cycle.
    We are working closely with our Navy and Air Force partners 
on key and common technical interests, such as counter-UAS 
[unmanned aircraft systems], hypersonics, and directed energy.
    Mr. Chairman, the bottom line in our mutual efforts is that 
the Army's modernization program takes time and money. We are 
working to achieve efficiency wherever possible, and we need 
sufficient, predictable, sustained, and timely funding to 
ensure a successful outcome.
    Thank you again for this opportunity to discuss Army 
modernization and for your strong support of the Army programs. 
I look forward to your questions.
    [The joint prepared statement of Secretary Jette, General 
Murray, and General Pasquarette can be found in the Appendix on 
page 44.]

STATEMENT OF GEN JOHN M. MURRAY, USA, COMMANDING GENERAL, ARMY 
                        FUTURES COMMAND

    General Murray. Chairman Norcross, Ranking Member Hartzler, 
and distinguished members of this subcommittee, thank you for 
the opportunity to testify on behalf of the men and women of 
Army Futures Command, the soldiers, engineers, scientists, and 
civilians, from privates to Ph.D.s, that are working every day 
to transform our Army.
    And I appreciate the opportunity to join Dr. Bruce Jette 
and Lieutenant General Jim Pasquarette as we continue as one 
team to drive that transformation. I am also pleased we are 
able to have this conversation with our Navy and Marine Corps 
counterparts, Dr. Geurts and Lieutenant General Smith. No 
service is able to go it alone, and, as history has shown, 
joint teams win. And modernization is no exception.
    And speaking of winning, our Chief, General McConville, is 
known for his phrase, ``Winning matters.'' From the joint force 
to industry, to academia, to our allies, I say, ``Winning 
matters, but winning together matters more.''
    Last year, we published a 2019 Army Modernization Strategy, 
and our written testimony echoes that framework.
    First is how we fight. Our concept, Multi-Domain 
Operations, is the Army's contribution to the Joint Staff 
warfighting concept called Joint All-Domain Operations.
    Second, what we fight with. These are the capabilities and 
force structures that we are designing and delivering.
    And, third and finally, who we are. We are a team of teams, 
centered around the powerful intersection of requirements and 
acquisition. And as Dr. Jette mentioned, we at AFC [Army 
Futures Command] and ASA(ALT) will continue to leverage that 
close partnership all the way down to the cross-functional 
teams and their program executive officer counterparts.
    In 2020, we are building on the momentum that we gained in 
2019 and making it irreversible. And there are two key 
components to that momentum.
    First is discovery. We are seeking out and finding the 
ideas and innovations that solve Army problems. From our own 
S&T [science and technology] efforts, partnerships with 
universities, to traditional and nontraditional industry, 
winning together involves innovation from every sector.
    Second is delivery. We have already fielded an Enhanced 
Night-Vision Goggle-Binocular as well as the Command Post 
Computing Environment, a component of the Common Operating 
Environment. And, in both cases, statement of need to delivery 
of those capabilities was less than 18 months.
    We also have successfully test-shot the Precision Strike 
Missile and Extended Range Cannon Artillery, greatly extending 
the range of two key long-range precision fire delivery 
systems.
    Looking forward, we will continue to capitalize on the 
success we have had with the Integrated Visual Augmentation 
System, better known as IVAS.
    In all of our efforts, we are leveraging a soldier-centered 
design approach to delivering capability, putting soldiers at 
the center of our production. Within this approach, we are 
committed to learning early and learning often. This means 
focusing on characteristics, working with industry and our 
soldiers, to make sure that when we do write requirements we 
get them right the first time.
    The key to getting this all right is our people. And in the 
coming year, you will see initiatives that give us the 
flexibility we need to seek out the best talent and manage it 
as we develop the innovative workforce our Army needs.
    And we will never be done modernizing. I call that 
persistent modernization. And we are pairing with our 
scientists and concept writers to look holistically at what 
could be. Our assessments will inform both future concepts and 
current S&T investments. This feedback loop allows us to 
maintain our lead in a rapidly advancing world.
    There is much more to discuss, and I look forward to 
answering your questions here today. And it is truly a 
privilege to lead and represent here today the tremendously 
talented soldiers, civilians, and families of the United States 
Army Futures Command.
    Thank you.

 STATEMENT OF LTG JAMES F. PASQUARETTE, USA, ARMY DEPUTY CHIEF 
             OF STAFF, G-8, DEPARTMENT OF THE ARMY

    General Pasquarette. Chairman Norcross, Ranking Member 
Hartzler, distinguished members of the subcommittee, thank you 
for the opportunity to speak to you today about the fiscal year 
2021 Army modernization budget request.
    I appreciate the opportunity to be on this panel, given the 
close cooperation that exists between AFC, ASA(ALT), and G-8 in 
modernizing the United States Army. I also echo General 
Murray's thoughts about being here with our brothers from the 
United States Marine Corps.
    The Army's fiscal year 2021 base budget request includes 
$34 billion in research, development, and acquisition [RDA], 31 
percent of which is aligned against the Army's six 
modernization priorities.
    To put that percentage into perspective, 31 percent of the 
Army's RDA account is aligned against just under 6 percent of 
the programs and efforts in the Army's equipping portfolio--a 
testament to the Army's commitment to modernizing in accordance 
with the National Defense Strategy.
    This investment commitment in support of the modernization 
priorities was not via an increase in RDA. In fact, the Army's 
RDA top line has remained relatively flat over the last 3 
years--again, about $34 billion.
    However, inside this account, there has been a significant 
increase in RDT&E [research, development, test, and evaluation] 
for game-changing technological developmental efforts overseen 
by Army Futures Command, resourced through a corresponding 
decrease in procurement of legacy systems. This shift was 
realized through the deep-dive process that I can outline 
during our time together today.
    From a FYDP [Future Years Defense Program] perception, the 
Army reprioritized internally $7.4 billion in RDA, resulting in 
the elimination or reduction of 80 programs. These dollars, 
along with dollars previously identified in the PB20 
[President's budget request for fiscal year 2020] deep dive, 
resulted in a $9 billion increase in the PB21 FYDP for the six 
modernization priorities. In total, there is $63 billion 
aligned against the six modernization priorities in the PB21 
FYDP.
    Beyond the Army's modernization priorities, this budget and 
associated FYDP also invested in other parts of our Army 
required to fight and win against the near-peer threat in the 
future. This includes investments in key enablers, those 
capabilities we must have that directly support the next-
generation systems being developed by AFC.
    Additionally, we began filling gaps in our ability to wage 
large-scale combat operations that were created 15 years ago 
when we optimized our formations and equipment for 
counterinsurgency operations in Iraq and Afghanistan.
    All three investment areas--the modernization priorities, 
the key enablers, and large-scale combat operation gaps--are 
necessary for the Army to fight and win in the future, and it 
is reflected in the fiscal year 2021 budget submission.
    I will close by quoting Secretary McCarthy. ``This budget 
is about finishing what we started over the last 3 years to 
realize the Army we must have to fight and win in the future.''
    I sincerely appreciate your time today, and I look forward 
to your questions.
    Thank you.

 STATEMENT OF HON. JAMES F. GEURTS, ASSISTANT SECRETARY OF THE 
NAVY FOR RESEARCH, DEVELOPMENT, AND ACQUISITION, DEPARTMENT OF 
THE NAVY; ACCOMPANIED BY LTGEN ERIC M. SMITH, USMC, COMMANDING 
 GENERAL, MARINE CORPS COMBAT DEVELOPMENT COMMAND, AND DEPUTY 
COMMANDANT FOR COMBAT DEVELOPMENT AND INTEGRATION, U.S. MARINE 
                             CORPS

    Secretary Geurts. Chairman Norcross, Ranking Member 
Hartzler, distinguished members of the subcommittee, thanks for 
the opportunity to appear before you today to address the 
Department of the Navy's fiscal year 2021 budget request on 
ground vehicles.
    Joining me today is Lieutenant General Eric Smith, Deputy 
Commandant for Marine Corps Combat Development and Integration. 
With your permission, I will provide a few brief remarks for 
the both of us.
    We thank the subcommittee and all of Congress for your 
leadership and steadfast support for the Department of the 
Navy.
    Our 2021 budget submission delivers ground vehicle and 
weapon readiness while modernizing our force to deliver a more 
lethal force in support of the National Defense Strategy. It 
demonstrates our continued commitment to ensuring our Marines 
have the equipment they need to execute our national security.
    The Marine Corps ground portfolio has shown significant 
progress over the last 5 years and is a top-performing 
portfolio in the Department of the Navy. Programs are 
consistently meeting or delivering ahead of schedule, putting 
capabilities into the hands of the Marines in the field today.
    We are working closely with our Army partners here, most 
notably on the JLTV [Joint Light Tactical Vehicle] program, but 
across the joint force, including SOCOM [U.S. Special 
Operations Command], executing my favorite form of R&D 
[research and development], ``rip off and deploy.'' If somebody 
else has it and we can get it in the hands of the Marines 
faster, that is the way we are going to do it, and that is 
working exceedingly well. And I look forward to having that 
discussion here today.
    Last fiscal year, the Marine Corps, speaking of programs 
like that, fielded the JLTVs, reaching IOC [initial operational 
capability] in August, 10 months ahead of our program baseline. 
To date, the Marine Corps has fielded over 500 of these 
vehicles.
    The Amphibious Combat Vehicle continues to execute on its 
baseline schedule, and it will enter operational tests this 
fiscal year, with the full-rate production decision this fall.
    The G/ATOR [Ground/Air Task Oriented Radar] radar has 
currently fielded 10 low-rate initial production systems, 
successfully completing its operational test and achieving its 
full-rate production decision this year.
    The Marine Corps highest ground modernization priority, the 
ground-based anti-ship missile, couples an unmanned JLTV-based 
launch platform with the Navy Strike Missile. By leveraging 
both of these proven capabilities, we are able to rapidly 
accelerate that capability at a very affordable cost. And that 
will allow us to attack our adversaries' sea lines of 
communication while defending our own.
    These and the many other programs reflect a lot of hard 
work from the entire community and show the increased 
integration between the Navy and the Marine Corps acquisition 
requirements communities, the integration with our joint 
partners. And, in doing so, we are putting transformative 
capabilities into the hands of our Marines.
    Continued budget predictability and stability will be 
necessary to maintain this success. Thank you for the strong 
support this subcommittee has always provided our Marines and 
our families.
    We thank you for the opportunity to appear before you 
today, and we look forward to answering your questions.
    [The joint prepared statement of Secretary Geurts and 
General Smith can be found in the Appendix on page 59.]
    Mr. Norcross. Thank you for your opening statements.
    We were just alerted that they are going to be moving votes 
up, so Mrs. Hartzler and I are going to defer our questions and 
go right to our committee.
    Mrs. Hartzler. Does General Smith have some remarks?
    Mr. Norcross. Your remarks were combined, correct?
    General Smith. Yes, ma'am.
    Mrs. Hartzler. Okay.
    Mr. Norcross. Thank you for that.
    Ms. Sherrill. Thank you, Mr. Chairman.
    I echo the concerns that the chairman and the ranking 
member expressed over reprogramming.
    Dr. Jette and General Murray, the Assistant Secretary for 
Acquisition, Army Futures Command, and Army Materiel Command, 
have apparently reached a transition to sustainment agreement 
on hundreds of Army weapons systems and platforms, including 
current ground systems.
    We understand that transition to sustain generally provides 
a path to a system's disposal. What is the significance of this 
agreement, from your perspective? What objectives does this 
agreement seek to achieve? And how will you know if the 
objectives are achieved?
    Secretary Jette. Thank you, ma'am.
    So we took quite a focused look at trying to determine how 
we could free up capital for, actually, our investment 
portfolio and realized that we tend not to transition things to 
sustainment, we keep moving them along--and we need to balance 
between those things that are modernized and about at the end 
of their useful life and going to be replaced by something else 
in the near future--and layered that into a collective group, 
Army Materiel Command, Army Futures Command.
    So Futures is concerned about what we need and when we need 
it. Materiel Command is looking at can they accept it, how can 
they sustain it. And then the purpose of ASA(ALT) in this 
process is to determine whether we discontinue producing 
anything that is not needed and how we transition that to 
sustainment. I, in fact, sit on both the equipping peg and the 
sustainment peg, so I am sort of the linchpin between the two.
    We established a committee, a methodology, and went through 
all of the programs, to include meetings with all the PEOs 
[program executive offices], to determine which things ought to 
be transitioned and could be. That led to this number in the 
vicinity of 100.
    We are using that same model to develop a similar 
methodology to determine what things can be transitioned to 
divestiture. We haven't finished that, and that is part of the 
objective this year, is determine what we can get out of the 
force.
    And we do know that we have a good number of systems that 
we sustain in small numbers. They tend to be associated with 
lower-priority issues, which means that they tend not to be 
looked at for replacement items along the road.
    So we are making a significant effort in trying to figure 
out how to get the same type of effort going against 
divestiture as we had going against the transition.
    General Murray. Ma'am, the only thing I would add is, we 
have an entire four-star command called Army Materiel Command 
that is responsible for sustainment.
    And so, as we looked at what was being funded within the 
equipping peg, in the RDA accounts that all the investment 
futures systems came from, there were a number of things that 
it made sense to transition, under the leadership of General 
Gus Perna, to sustainment.
    And you said sustainment to divestiture, and, as Dr. Jette 
pointed out, it is actually two entirely different processes. 
For the divestiture piece that Dr. Jette mentioned, a majority 
of that input is coming from U.S. Army Forces Command.
    So we are asking units what equipment no longer leaves the 
motor pool, no longer leaves an arms room, no longer leaves a 
supply room just because soldiers don't use it anymore. And 
that is really the equipment we are focused on, is, with input 
from soldiers, is equipment they don't need to accomplish their 
mission.
    Ms. Sherrill. And so, if I understood you correctly, the 
equipment you were just speaking of is transitioned to 
divestiture, which you are saying is separate from transition 
to sustainment.
    General Murray. It is two different things. The transition 
to sustainment, at this point, is to sustain for continued use. 
It is not to divest.
    And then we have taken on a second effort, as Dr. Jette 
mentioned, to begin to look at things we can completely divest 
of. And that is the only way you really, truly free up 
resources, as opposed to just moving it around, who has 
responsibility for paying. And so the only way you ever truly 
free up resources for the Army is through divestiture.
    Ms. Sherrill. That is helpful. Because in my conversations 
with General Perna, there was some concern that, in 
transitioning, the transition to sustainment was moving things 
out of the capability of updating them and investing in them 
and reconfiguring them for more modern use.
    Those are some of my fears. I wonder if you could address 
that.
    General Murray. And that was part of it. And it was a long 
process that General Perna had, and, at the end, Dr. Jette and 
Gus Perna and I sat down and we decided what was going to 
transition to sustainment, what wasn't, and there was complete 
agreement amongst the three of us.
    So transition to sustainment does not necessarily mean 
there won't be further investments. There are always going to 
have to be investments to maintain the capability, the 
maintenance that has to go into extending the life, et cetera, 
et cetera.
    Fundamentally, and not necessarily in all cases, what 
transition to sustainment means is there will be no further 
upgrades, so go to a better weapons system, to put a new engine 
in something, but the sustainment dollars are still there.
    Ms. Sherrill. That sort of allays some of my concerns when 
we are talking about issues of updating them.
    And I see my time is expiring, so thank you so much.
    Mr. Norcross. Thank you.
    We are going to back it down to 3 minutes so we can get 
some questions in. We have about 20 minutes before the members 
will have to leave for votes.
    Mr. Mitchell, you have been focused on the OMFV [Optionally 
Manned Fighting Vehicle]. Certainly, we have an opportunity to 
have that discussion here.
    Mr. Mitchell. Thanks, Mr. Chair. We will have that after I 
make a brief comment. And it is unfortunate that all of our 
hearings, or many of them, have started out talking about 
reprogramming. So, at this point in time, I think I need to 
make some comment on that.
    I believe our border is part of our national security, in 
contrast to some that are here. Unfortunately, Congress has a 
duty in Article I, one they failed to undertake because 
compromise is a four-letter word. We can't compromise. We 
failed to address the border wall or border security 
adequately. We failed to compromise, internally or with the 
administration. So you are left with reprogramming money that 
should go to other things. I am sorry for you. It is no kind of 
way to make decisions.
    We failed in our responsibility here, Mr. Chair. We failed 
here. We failed in working with the administration.
    That is our responsibility, not yours. And, frankly, it is 
a shame.
    Let me go to the Optionally Manned Fighting Vehicle. I will 
keep the same team I have had in the full hearing with the 
Army. I am concerned I have not gotten an adequate explanation 
of the abrupt cancellation of the procurement and what that 
does to the schedule, what delays that creates in the schedule.
    You all identified, we agreed, that was a critical item. 
Now we are, in my opinion, pushed back. And no one has answered 
what the cost and delays will be in multiple inquiries. 
Frankly, I have gotten a whole lot of discussion around it, to 
be very honest with you.
    So I am not going to ask you to address it here, but I am 
going to ask you all to address it for the record, of what 
happens from the original schedule to the new schedule on that 
Optionally Manned Fighting Vehicle and what the cost changes 
are. And we want an answer for the record. It is an issue that 
is a concern for many people here, because that was a pretty 
abrupt change.
    [The information referred to can be found in the Appendix 
on page 78.]
    Mr. Mitchell. The other point I will make with you is that 
we are increasingly asking the private sector, venture capital, 
to invest in innovation, technology, development of some of 
these things. People did that, to a fair extent, and we 
abruptly canceled it.
    What impact do we believe that is going to have, Dr. Jette, 
in the future when we are telling people, please do that, and 
then all of a sudden we changed our mind? How do we fix that 
now at this point?
    Secretary Jette. Sir, I agree that if we were to abandon 
the effort on OMFV, it would be a wasted effort, it would be a 
wasted expenditure on the part of the company.
    I was actually at their facility and talking to them just 
last week, and we have made it clear, OMFV is continuing. The 
objective that we were pursuing is unchanged. It is the 
methodology by which we are trying to get there. Their 
investments will continue to contribute to their next 
submission, and we expect them to participate.
    Mr. Mitchell. Let me make one quick point, which is the--I 
serve on the Future of Defense Task Force. And one thing that 
has become abundantly clear to the task force members is, in 
our procurement process, we outline a problem, then we tell 
folks frequently how to solve the problem, rather than asking 
the private sector, rather than asking contractors, what do you 
think is the best way to solve this problem, and see what 
innovation we get. And that is part of the problem I think 
happened in this procurement.
    So I would desperately ask you folks to start with your 
acquisition folks to say, just tell the sector what your 
problems are, what you are trying to address, and let's see 
what ideas they have, rather than believe we can cook them all 
within the five walls of the Pentagon.
    Thank you. And I have to yield back because we only have 3 
minutes. Thank you, Mr. Chair.
    Mr. Norcross. Thank you.
    Mr. Vela.
    Mr. Vela. General Murray, I think what I will do is I will 
defer the debate over the reprogramming for another day, but I 
would like to say that, after you and I spent one full day on 
the border, I want to personally thank you for a fulfilling 
experience with our Vietnam veteran pinning ceremony. I 
firsthand saw what you are doing with respect to academic 
research in the medical technology field and in the space 
field. And I just want to thank you for the time you spent with 
us down on the border.
    General Murray. Sir, it was my pleasure, especially the 
opportunity to pin some pins on some very well-deserving and 
long-overdue Vietnam veterans. So thank you for that 
opportunity. And then, of course, the visit to the border and 
the university.
    Mr. Norcross. Does the gentleman yield back?
    Mr. Vela. Yes, Mr. Chairman.
    Mr. Norcross. Mr. Turner.
    Mr. Turner. General Murray, I am a big fan of Futures 
Command and, of course, of your leadership, as you know.
    I had the opportunity yesterday to hear your comments at 
the McAleese conference. You told a story about your work and 
the work that the Futures Command has done to take even the 
warfighters' input into goggles. Would you please retell that 
story as to how that helps you formulate what you are doing?
    And if you have another one from your comments yesterday 
that would also be insightful for this committee, if you would 
tell that, I would appreciate it.
    General Murray. Yes, sir. And you are challenging me to 
remember what I said yesterday.
    So, specifically--and I think the comment refers to, and I 
referred to in the opening remarks, soldier-centered design. 
And it dawned on me very early that one of the commercial 
industry's best practices is customer-centered design, and I 
realized that we did not do that with our soldiers. The first 
time soldiers saw a piece of equipment was when we delivered it 
for limited user tests, and it usually didn't fare well because 
we didn't have soldiers involved from the front.
    So that has become a standard principle for everything, not 
only within the cross-functional teams but, thanks to Dr. 
Jette, throughout the acquisition community, that we get 
soldiers involved early and often in terms of the design.
    A couple clear examples. And, ma'am, you mentioned Next 
Generation Squad Weapon. So we started off with five different 
vendors, and we have had soldiers--and when I say ``soldiers,'' 
it is not me and General Pasquarette; it is the privates, the 
sergeants, and the captains and lieutenants who will actually 
be using the equipment--provide input to us. And then, 
importantly, we listen to their input and make modifications.
    IVAS is probably the clearest example that I could think 
of. We have had over 6,000 hours of soldier touchpoints. We are 
doing it inside of 3-week sprints. So, every 3 weeks, the 
engineers will put the equipment on soldiers, and soldiers will 
provide feedback to the engineers, and the engineers will make 
that change over the next 3 weeks, and we will just repeat that 
cycle consistently.
    As an example, we were on path to deliver a set of goggles 
that could see 600 meters. We put them on a soldier, and the 
soldier said, why do you think I need to see 600 meters? 
Because when you go long, it is a very narrow field of view. 
You get no peripheral vision. And the insight was, they would 
much rather be able to see to the side for situational 
awareness [than] to be able to see 600 meters.
    So if we had proceeded on normal path, we would have 
delivered a pair of goggles that soldiers would not have been 
happy with. And so we made that design modification, and they 
can now get what they want. Plus, the sight we are delivering 
that will be on the rifle is capable of seeing 600 meters, and 
they can see through their sight with their goggles. So we 
really got the best of both worlds.
    Secretary Jette. If I can quickly add--and it may relate 
back to the last question concerning OMFV. Our path forward is 
very similar for OMFV, although modified because we can't make 
a large number of replicants of vehicles, to pursue this 
methodology and a maturation process for OMFV, starting with 
industry, rough digital prototype, fine digital prototype, a 
physical prototype.
    And we have had reform in acquisition. What General Murray 
has worked with us on is methodology by which we can reform 
requirements development. So, at every one of those interfaces, 
there is a revision of the requirements, informed by industry, 
informed by the prototyping, informed by touchpoints by 
soldiers, at digital touchpoints by soldiers, modeling and 
simulation.
    Mr. Norcross. We will continue with Mr. Brindisi.
    Mr. Brindisi. No questions, Mr. Chairman.
    Mr. Norcross. Yield back.
    Mr. Bacon.
    Mr. Bacon. Thank you, Mr. Chairman.
    My first question is on the Joint All-Domain Command and 
Control, the JADC2, that the Air Force is working on. I know 
the goal is trying to make it integral through all of our 
services, and your future weapons systems will need to dovetail 
in.
    How is that working? Are we getting good coordination with 
the Air Force in putting a joint JADC2 plan together?
    General Murray. So JADC2, the concept of any sensor, any 
shooter, any C2 network in near real-time, is actually a joint 
concept.
    Mr. Bacon. Good.
    General Murray. So it is a Joint Staff concept. The Air 
Force has an effort going on. We obviously have an effort going 
on. The Marine Corps and the Navy have an effort going on. And 
to answer your question directly, sir, yes, we are all 
integrated under the leadership of the Joint Staff, J6, right 
now.
    The only question is how you deliver it and, you know, how 
you establish--the most important thing, because if you get 
down to what I just described, it all comes down to data and 
data architectures. So how you build that architecture that 
allows all the services to plug in--nobody is arguing with the 
concept of JADC2. It is just how we get for a joint force to 
enable that fight and that data architecture.
    Mr. Bacon. General Smith, anything else to add?
    General Smith. Sir, I concur with General Murray. We are 
involved. We went to a conference together out in Nellis. We 
are daily engaged and involved with JADC2.
    But the concept of--which I don't think we do as good a job 
as we should of explaining what ``any sensor, any shooter'' 
really means. A Marine on the ground in place X should be able 
to pass data through the Joint All-Domain Command and Control 
to an Army unit that then fires a PrSM [Precision Strike 
Missile] missile, or to an Air Force F-35A, or that F-35B that 
is flying passes it to me, and I shoot a GBASM, a ground-based 
anti-ship missile.
    The concept is simply passing data. And we are being very 
mindful that the systems, the form factors that we need, as 
ground forces, are able to feed into something without being 
forced into a specific methodology over which to pass data. And 
I think we are there, sir, and the cooperation, collaboration 
is quite good.
    Mr. Bacon. In my last 50 seconds, we walked away from EW 
[electronic warfare] back in the mid 1990s. I have heard a 
great briefing from the Joint Staff, I have heard one from the 
Air Force, where there is a high priority, we have a plan to 
right the ship.
    How about your services? Do you feel like we are in the 
same boat? Are we pointed the right way, headed the right 
direction?
    General Murray. Quickly, sir, for time, absolutely. So 
systems not only to, most importantly, understand the 
electromagnetic spectrum, which we don't have right now, and so 
first you have to understand before you can influence and 
impact and protect, and then actually standing up units within 
the multi-domain task forces that will have EW capability 
within them.
    Mr. Bacon. Okay.
    General Pasquarette. Just from a fiscal perspective, we are 
committed $600 million in 2021 and across the FYDP $3.4 billion 
in an area that we know we need to catch up on. And so we are 
committed to the way ahead.
    Mr. Bacon. Thank you very much. I will yield.
    Secretary Geurts. Chair, we are good on Department of the 
Navy. We can give you a brief in detail.
    Mr. Bacon. Thank you.
    Secretary Geurts. Yep.
    Mr. Norcross. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    For both General Murray and General Smith, I know your 
respective services are working on countering unmanned aerial 
surveillance with the Common Aviation Command and Control 
System [CAC2S] for the Marines and Integrated Air Defense 
Battle Command System for the Army.
    My concern is that these are going to be become stovepiped. 
They are separate initiatives, separate ventures. And two 
things are wrong with that, in my opinion. It is not as good as 
one joint effort, because two heads are better than one, right? 
And, secondly, they won't be able to communicate and 
interoperate in a multi-domain environment.
    So are you aware of that, and are you working to work 
together on that vital issue?
    General Smith. So, sir, one, good to see you again, sir.
    And as far as CAC2S, the command and control system, which 
for us incorporates all of Marine Air, fast movers and rotary 
wing, that is the overarching system underneath which we pass 
data, as far as counter-UAVs [unmanned aerial vehicles].
    There is actually a joint task force, if you will, that has 
been stood up under the executive agency of the Army to make 
sure that our counter-UAS systems are, in fact, joint. Those 
specific systems--ours is called MADIS [Marine Air Defense 
Integrated System]; that is the Marine--it is our small, 
counter-UAS system that fits on a Joint Light Tactical Vehicle. 
That is a specific system, and those systems are being looked 
at to find out which is the best to be the joint force system.
    The command and control architecture that is unique for a 
naval force versus a land force, those are in fact different, 
but they do have the ability to communicate and talk. So we are 
very comfortable with our CAC2S because of our unique necessity 
to bring in fast-moving aircraft and control airspace.
    Mr. Lamborn. Great. General Murray.
    General Murray. Yes, sir. So IBCS, Integrated Battle 
Command System, is a system that is part of the JADC2 
overarching architecture. And we are having great success--we 
will do a limited user test here pretty soon--on linking air 
defense sensors and air defense shooters, primarily from the 
Patriot standpoint right now. And we will continue to integrate 
more and more weapons systems and more and more sensors into it 
as we mature the system.
    And as General Smith mentioned, under the Army's 
leadership, there has been an executive agency established for 
the Army to lead the counter-UAS effort for the Department of 
Defense. And so, inherently, that will be joint, because it is 
from all the services. We are just the executive agent managing 
the program.
    And then, as you know, we have had a long history of 
fielding counter-small-UAS systems to both Iraq and Afghanistan 
over the past 5 or 6 years, and so there is some history to 
that.
    Mr. Lamborn. Along that line, does Army have plans to use 
Iron Dome that the Israelis have developed but we now co-
produce?
    General Murray. Can I go past time, sir? Am I good?
    So Iron Dome--the 2019 NDAA [National Defense Authorization 
Act], there was--and there was a report submitted that we would 
purchase two batteries of Iron Dome with the intent of 
integrating them into our integrated air defense system. We do 
air defense in layers, and so the connections between high-
altitude, mid-altitude, and low-altitude systems is very 
important to us.
    It took us longer to acquire those two batteries than we 
would have liked, for a lot of different reasons. And we are in 
the process right now. We believe we cannot integrate them into 
our air defense system based upon some interoperability 
challenges, some cyber challenges, and some other challenges. 
So what we ended up having, really, is two standalone batteries 
that will be very capable, but they cannot be integrated into 
our air defense system.
    And so we are working a path right now--the report came in 
last Friday--on our way forward. We anticipate a shoot-off open 
to U.S. industry, foreign industry, to go after whatever is the 
best solution to provide that capability.
    Mr. Lamborn. Okay. Thank you.
    Mr. Norcross. Okay. That is our call to votes. We are going 
to push this up until the point we have to run. We can come 
back.
    So thank you, Mr. Lamborn, for that line of questioning.
    So I want to go back a little bit and try to, with Mrs. 
Hartzler, get into some of the meat of why we are here today.
    So, Dr. Jette, Secretary Geurts, tens of billions of 
dollars have been shifted around based on night court, the 
National Defense Strategy. There is no question about that. But 
a clear return on investment. When we made those decisions, 
those tradeoffs, there was risk involved. We see that each and 
every day. And you have had to make those tough decisions.
    According to the 2018 September GAO [Government 
Accountability Office] report, the Army hadn't finalized the 
method for these investments on how we evaluate them. Can you 
give us an update from when that report came out to where we 
are today, how you are looking at the shifts that we made, and 
how are we evaluating against what we originally thought?
    So, Dr. Jette, would you like to start first?
    Secretary Jette. Yes, sir. I think that we end up, 
actually, having part of the answer from General Murray and 
part of the answer from the ASA(ALT) side.
    We look at return on investment, and we have been 
relearning some things that we had practiced effectively during 
the Cold War, because now we are going back to large-scale 
operations, and how we can make measurements in effectiveness.
    So the implementation of modeling and simulation to 
determine whether or not a particular capability that we are 
trying to put into a weapons system provides us some sort of an 
operational advantage. Because the purpose here is to get a 
product which does something for the soldier in the field, 
helps us win decisively. If we do that, then we generate, in 
its implementation, deterrence.
    Mr. Norcross. But we made the choice to go over the six 
priorities. How are we evaluating whether those and their 
associated programs underneath them were the right move? How 
are we evaluating that now?
    Secretary Jette. I will turn that over.
    General Murray. So one of the beauties of standing up AFC 
is I own probably 70 percent of the analysts, the ORSAs 
[operations research and systems analysts], in the Army. So we 
have, over the course of the--even before we named the six 
priorities, we did some sophisticated modeling and simulation 
where we injected potential capabilities of the things that we 
were developing and measured differences in outcomes of those 
scenarios. And the scenarios, I won't get into them here, but 
they were tied to specific places and specific locations in the 
world.
    So we established a base case with current capabilities and 
current tactics and current doctrine. And then we modified the 
scenario and also updated our opponents' capabilities, where we 
project them to be, and then begin to measure the difference, 
capability by capability, platform by platform, developmental 
program by developmental program, on what those differences 
were and how much of a difference that investment would make.
    Mr. Norcross. So where you are today, those decisions were 
made, those investments were made, and although just the 
beginning, you still feel across the spectrum of those 
decisions you are on target for what you originally planned?
    General Murray. I do, sir. And as budgets flatten--and, as 
a matter of fact, you know, if you look across the FYDP, it is 
not 1 percent loss of buying power. We are about $7 billion of 
lost buying power, if we remain flat, across the FYDP.
    There are still some tough decisions to be made. And when 
we talked about night court, there were a lot of tough 
decisions. And those tough decisions could lead into within the 
``31+3'' signature programs. We just don't know yet. Because 
there are some that, depending on where you are in the world, 
contribute more than others. And so we still have a lot of 
tough decisions to make in the future.
    Mr. Norcross. We understand the dollars and cents, but the 
direction is the important one, that we are investing and we 
are now measuring that investment, that it was the right way.
    Secretary Geurts.
    Secretary Geurts. Yes, sir. I think of your question in two 
aspects. One is, how do we measure the risk and performance of 
the trades we made on the battlefield? Ultimately, that is, you 
know, in the warfighters' eyes.
    And the biggest risk is in that transition. You know, we 
are facing tough decisions--the F-18 lines, the P-8 line, a lot 
of places where getting the ``when do you stop'' and ``when do 
you have enough confidence to start'' is really challenging, 
and being very thoughtful about where your outs are if you 
didn't get it quite right and where you are at the point of no 
return. So we spent a lot of time thinking that.
    The other transformation is not what we are buying but how 
we are buying it. And that, I don't think you have the same 
level of risk. As you heard in my hearings yesterday, we saved 
$25 billion just by buying the equipment using modern, more 
thoughtful acquisition methods. So the risk in that calculation 
is not the same as the warfighting risk. We have to go on both 
of those directions but be thoughtful.
    And then, last, we have to work on the absorption rate of 
the field to be able to absorb new technology. So, even if I 
can deliver it quickly, if we don't have the training and the 
education and the force design right, it won't matter how fast 
I can get it out there; I can't absorb it.
    And so a lot of very thoughtful work in the Marine Corps 
particularly about how to train to absorb new systems. Because 
if you don't have that third element right, you can do the 
first two great and then it all backs up in the motor pool.
    Mr. Norcross. So I want to pursue that, but I want to give 
my ranking member time before we go to votes.
    Mrs. Hartzler. Sure. Thank you very much.
    Dr. Jette, I was very encouraged by General Murray's 
comments about development of the Next Generation Squad Weapon. 
And I just applaud what you are doing, having the soldier look 
at it and making those revisions. That makes so much sense.
    And this new Next Generation Squad Weapon, of course, is 
going to require a new caliber to be using these weapons, a 
6.8-millimeter round. I understand that ammunition is going to 
be produced at Lake City Ammunition Plant in Missouri, which we 
are very excited about. Many of my constituents work there and 
have worked there for years. I am very proud of what they do.
    Could you update us on this effort? And do you require any 
additional funding in fiscal year 2021 for additional tooling 
or modernized equipment at Lake City?
    Secretary Jette. Thank you, ma'am.
    So we have three candidates. Each of the three candidates 
have different configurations for the 6.8 round. One of them 
looks very much similar to a conventional bullet that we are 
all used to. The second one looks more like a lipstick case. 
And the third one looks somewhat similar to the conventional 
bullet but it is shaped like a----
    Mrs. Hartzler. I had a chance to see those.
    Secretary Jette. Ah.
    Mrs. Hartzler. Yeah, very interesting.
    Secretary Jette. The good part about that is that we think 
that the performance of the weapons are showing great promise. 
The tough thing that it leaves me with, just as you are 
alluding to, is: Now, how the heck do I make all of those? And 
I don't know which one, but when I do decide that I am going to 
make them, then we have to make a lot of them.
    Lake City is where we intend to produce them. And what we 
are working preliminarily with the vendors is being able to 
take the technology that they are using--in the case of the 
brass casing, we just have to redo dies and things, and we can 
use similar machines that we already have in place. In the case 
of the other two, we will have to develop some new equipment, 
but they have already developed that equipment as part of their 
development scheme.
    Mrs. Hartzler. Good.
    Secretary Jette. So we will probably be producing the 
initial tranche for a year or two as we reset Lake City and be 
able to put the equipment in place.
    Mrs. Hartzler. But as far as funding goes, do you think you 
are going to need any additional funding or are we spot-on for 
what you anticipate is new tooling, machining to make this?
    Secretary Jette. Yes, ma'am, right now I think that we are 
fine.
    Mrs. Hartzler. Okay.
    And, General Smith, as far as the Marine Corps, can you 
discuss similar efforts in developing the next-generation small 
arms capability and how you are coordinating with the Army?
    General Smith. Yes, ma'am. So we coordinate on all of our 
small arms, to include the Next Generation Squad Weapon and 
IVAS. We have Marines involved in IVAS testing.
    So what we are committed to is the best weapons system that 
the Marines can have. So what we will do is continue to 
coordinate with Army Futures Command in all the testing and the 
requirements development so that what we owe you is, where 
there are differences, where we find a difference, where we 
need, as a navally focused force, we have to explain that to 
you. We can't just say, well, we are different because we are 
different. We have to explain that to you.
    But, right now, we are in step with and coordinating 
closely everything from the modular handgun all the way up to 
Next Generation Squad Weapon with the Army.
    Mrs. Hartzler. At this point, have you seen any differences 
that you are going to need as the Marines compared to the Army?
    General Smith. I don't think anything in the small arms 
category, ma'am.
    Mrs. Hartzler. Okay.
    General Smith. We are working joint sniper rifles, et 
cetera. So, frankly, in the small arms category, no, ma'am, and 
to include body armor.
    Mrs. Hartzler. Very good. Thank you.
    Are we going to ask more questions now, or----
    Mr. Norcross. We are up against votes, so we are going to 
suspend, barring our votes. We don't think it is going to be an 
hour, but it could be up to an hour. And we are going to come 
back because we just got our first top line in. It is not easy 
to get you all in one room at one time, so we will suspend 
subject to the call of the chair.
    Thank you.
    Mrs. Hartzler. We have great coffee in the back. Thank you.
    [Recess.]
    Mr. Norcross. Again, thank you for bearing with us. 
Democracy takes time, and certainly we just went through some 
of that.
    So I want to pick up where I dropped off with regards to 
measuring the reallocation and the requirement that we have: 
Are we doing the right thing? Are we getting the right 
outcomes, at least in year two?
    So, General Murray, you started to say the process by which 
you are measuring the ability to get things done in an 
appropriate amount of time and more touchpoints along the way, 
which we all agree with. In fact, we will talk about IVAS a 
little bit. Microsoft, I think, is a great case study on how to 
do it.
    So that is the method by where we go. What I want to say 
and ask you, we reallocated based on new six priorities. Within 
those six, many programs, are we going in the right direction? 
Have we measured those decision points? Not how we are getting 
to it, but is it the right decision? Did we make the right 
move? Any indication on that, and how are you measuring that?
    General Murray. So there is lots of elements to this, Mr. 
Chairman, and----
    Mr. Norcross. There is, and this is why we want to have 
that discussion.
    General Murray. Right. There is the industrial base risk, 
some of the things that were unfunded or reduced or eliminated. 
I mean, there is that risk.
    There is the risk of going fast and making mistakes as you 
go along to get capability enhancements out to soldiers. There 
is risk in--that we are prioritizing the wrong things, which I 
think you are now focused on.
    And that is where I would go back to what I tried to 
explain before, is the ultimate--you know, I guess the ultimate 
judge of whether we made the right decisions hopefully will 
never happen, that we never have to use these capabilities in 
an all-out conflict, and that is going to be the ultimate judge 
of whether we made the right decision or not.
    Short of that, we do have ways of conducting modeling and 
simulation in some pretty realistic scenarios, and in those 
cases, we are substantially better off in multiple theaters 
than we were with the equipment that it is replacing.
    Mr. Norcross. You are comfortable with that.
    General Murray. Yes, sir.
    General Pasquarette. May I have a point?
    Mr. Norcross. Please.
    General Pasquarette. When I first came in as the G-8, sir, 
about--I don't know--18 months ago, Secretary Esper, our 
SECARMY [Secretary of the Army] at the time, said: Listen, in 
deep dive one, I knew--I knew we took a lot of risk on this 
program to take the dollars that I thought we needed to place 
against the modernization priorities. So, when you do deep dive 
two, which is up here on the Hill right now that you are 
looking at, I want you to do analysis to see where there was 
any unacceptable risk, and so do the analysis as you build the 
current--this program we are discussing now.
    And, in that process, we identified 12 programs that we put 
in almost $600 million against based on that analysis. It went 
through Dr. Jette and General Murray, but it had to go actually 
all the way to Secretary Esper and General Milley, that they 
had to approve putting any dollars back in that were reduced or 
eliminated the time before.
    Mr. Norcross. On the legacy programs?
    General Pasquarette. Yes, sir. And so we have the details, 
and we can provide that to your staff as a part of our process.
    Secretary Geurts. Yes, sir. Kind of to build on that, I 
would say, you know, we talk about a hollow force. We also 
guard very closely in the Department of Navy, hollow 
acquisition programs. As you try and do a lot, you have got 
resources you can, if not careful, get optimistic or overly 
optimistic and close off paths. And so we spent a lot of time 
looking to make sure: Okay. We are going to make a pivot. We 
are going to transition. Where is all the transition risk, and 
are we going to transition to a program that is whole as 
opposed to transition to a hollow program?
    Where I have seen issues in the past is where we have 
become too optimistic, hollowed out the program, and, you know, 
had to have a 350-yard drive, and then our best five iron and 
one putt in from 30 feet, as opposed to have the right programs 
to pivot into, with an ability to go back out if that pivot 
wasn't the right one.
    Mr. Norcross. We all believe that we will be batting a 
thousand, but there are times that----
    Secretary Geurts. Sure.
    Mr. Norcross [continuing]. Through technology or other 
reasons, that we are not getting to where we expected.
    Secretary Geurts. Yes, sir, but I would also counter the 
risk of playing it too safe or the risk of not looking at this 
of a pacing threat, and the risk of not doing something for 
fear that we don't have it a thousand percent right is also not 
the right way to go. And so we have got to balance. We have got 
to be ready tonight, but I don't want to, in 2030, be ready for 
a 2020 fight.
    And that is where I think the leadership--and part of it is 
a really--the best way to get after it out of my SOCOM days 
was, the more closely you can link warfighter to acquisition to 
technologist, close that distance down, like you are seeing 
here between Futures Command and the Army acquisition to G-8, 
what you are seeing here with General Smith and I.
    So that is--it is an iterative loop. What do you need? How 
can you get it to me? What do I need to get it to you? And that 
is a constant dialogue. The closer that link is with Congress 
as a clear partner in that, that is when we can get our 
institutional speed up.
    That institutional speed is our best hedge against risk, 
both in terms of are we going to the right thing, or have we 
pivoted too fast and we need to have a fallback plan?
    Mr. Norcross. So exactly where we wanted go. So you are 
comfortable with the decisions and the priorities. Now we are 
discussing the speed of which, which are actually dollars and 
technology that you are combining to those.
    Where is your biggest challenge right now in terms of 
anticipated, where you would be at this point, and where you 
actually are? And is it a technology issue, or is it a dollar 
issue? So let's go right back.
    General Smith. Chairman, I will take that from our side. I 
would say it is both. How do we reference point? Are we where 
we should be? No, sir, we are not.
    General Berger's focus has been on being prepared by 2030 
for what he calls the decade of uncertainty. We know that the 
pacing threat continues to move, and we cannot continue to hold 
at our current mission sets and our current requirements. We 
have to move toward the pacing threat.
    Mr. Norcross. Well, I think what we will stipulate, we all 
know we aren't where we want to be.
    General Smith. So----
    Mr. Norcross. But are we where we anticipated to be at this 
point since the change?
    General Smith. Sir, we are. General Berger has been pretty 
clear that the budget 2021 is the budget upon which we pivot to 
his future force, what he wants to do. So, for us, things like 
ground-based anti-ship missile, which is our number one ground 
program. We have to get that if we are going to be--the 
component that the Navy, the fleet commanders need our Fleet 
Marine Force to provide to the joint force. We are the littoral 
force as it is. The missile systems that we fire, the weapons 
we fire should clearly be able to strike a ship and actually do 
cost imposition.
    And I will, very quickly, sir--for example, the Naval 
Strike Missile, which is already produced by the Navy; so it is 
a program we pick up off the shelves--it is about 1.7 million. 
When that begins to go after to significantly damage, or a 
couple of them, to sink a billion-plus dollar enemy warship, 
that is real cost imposition. That is what we are striving 
toward.
    We are exactly now where I think we need to be. We will 
test fire that system, for example, this June. We test fired 
the sled upon which it will fire, Joint Light Tactical Vehicle, 
in December successfully. We will fire the missile this June, 
and then we will be in a position to take advantage of that and 
actually move forward with the capability that the joint force 
wants and must have to compete with a peer competitor.
    Mr. Norcross. Okay. What we are going to do is I want to 
give Mrs. Hartzler a chance, and we will just pivot back and 
forth.
    Mrs. Hartzler. Yeah. Great. Thank you, Mr. Chairman.
    I appreciate the strategy and what you are doing, and it is 
tough, looking at the risk and how fast to go. Supply chain is 
certainly a part of that. Industrial base, keeping that going 
for not only modernization but also to be able to continue to 
repair and to take care of what we already have into the 
future. So tough job, and I look forward--I appreciate this 
discussion with members here so that we can help in this 
transition.
    I wanted to ask some questions about some more specific 
programs and as you make this transition, so I will start with 
Dr. Jette. I understand that the Long Range Precision Fires 
remains the Army's number one modernization priority, and the 
Precision Strike Missile is a critical program within that 
mission area.
    So what is the Army doing to ensure continued competition 
in the Precision Strike Missile program, and are there lessons 
learned from the Optionally Manned Fighting Vehicle effort that 
could be applied here?
    Secretary Jette. First, ma'am, you are correct. A long-
range precision fire is the number one priority. A bit to the 
chairman's question, one of the other things that we are 
contributing to to make sure we have got things scaled right is 
I know that General Murray and his team are working on a fires 
study to make sure that we even have within that focus area the 
right priorities. And so we are very supportive of that.
    Precision Strike Missile, we recently had a test firing. Of 
the missiles that we had two candidates, the two candidates, 
one missile was successful firing; the other missile had some 
technical problems. Not insurmountable. And where we are with 
that is we will have another test firing, I believe, later this 
month, or early next month. I can get you--I will get you the 
exact time we are going to do the testing.
    So we definitely know one candidate is ready to go to that 
firing. The other candidate has some makeup to do. We are 
currently negotiating with them as to how to resolve that 
because we have to keep a level playing field between two 
competitors. I can't give someone else more money than I gave 
the other ones, and I am getting someplace with one competitor, 
and the other one has to make some adjustments. So we are 
trying to negotiate out a fair and equitable deal within our 
authorities to see if we can keep the second competitor 
involved.
    Mrs. Hartzler. Great. Where--I am interested in, General 
Murray, your test--your fire study that is underway. When is 
that going to be completed, and should we wait until this is 
done to inform the requirements for the missiles that you are 
developing?
    General Murray. So it is due to be done the end of this 
month. I have got to see the Secretary and the Chief here 
probably shortly after it is done, and then, you know, once the 
Chief and the Secretary get a good look at it, I would be happy 
to come up and talk to you about it.
    It was designed to look within the fires portfolio across 
the PrSM missile, across long-range cannon artillery to look--
we had a number of programs inside Long Range Precision Fires, 
and what it was designed to do is go out to the two theaters, 
INDOPACOM [U.S. Indo-Pacific Command] and EUCOM [U.S. European 
Command], and specifically the target tiers, and look at their 
targeting work list, if you will, and then try to figure out 
the most important investments within the portfolio, so we can 
kind of rank order from one--look where there were similarities 
and where there was vast differences in how the theaters and 
the actual warfighters valued those capabilities.
    So it wasn't specific to the two competitors for PrSM or a 
specific, you know, program itself. It was more of a rank 
ordering within that portfolio, what is most valued by the 
warfighter.
    Mrs. Hartzler. That is great. I love your approach of 
starting with the warfighter, what is the needs.
    And, Dr. Jette, there will be time, then, to incorporate 
what your lessons learned and this other--very good.
    I wanted to ask General Smith--and I loved General Murray's 
quote from earlier, your comments: A joint team wins. I love 
that, and then you said: Winning matters. Winning together 
matters most.
    I might make a poster on that or something. It was good 
stuff. Good stuff.
    And so I know you--the Marines is also looking at the 
precision fires development long range, so how are you 
coordinating with the Army in this development process, and 
where are you in developing this new weapon?
    General Smith. So, ma'am, the Secretary of Defense, by 
January of 2020 asked us to deliver the--all of us, the joint 
force, to deliver the joint warfighting concept, and, 
underneath that, there is a precision fire--a Long Range 
Precision Fires piece, which the Navy leads. The Navy--each of 
the services has an element of logistics, et cetera.
    So we are coordinating on the concept of Long Range 
Precision Fires, although what we are seeking now is a system 
with an active warhead that can go after--an active seeker, go 
after a ship. As the littoral combat force, things that we 
fire, we can--we are capable of firing an Army ATACMS [Army 
Tactical Missile System] off of our HIMARS, High Mobility 
Artillery Rocket System, now, but what we are not capable of 
doing is going after a ship that is moving. A land-based 
target, we can do.
    We have to have a system that can go after this. So the 
Deputy Secretary of Defense just tasked us to take over the 
ground launch cruise missile way forward, and that will go 
after things like tactical Tomahawks, Navy strike missiles--
Navy strike missiles and naval Tomahawk that has got an active 
seeker that gets you at ranges of 750 and beyond. That is what 
matters in the contested environment of the South China Sea or 
in the INDOPACOM area, and we are coordinating. I just talked 
to the Army PrSM PM [program manager] probably 2 months ago out 
at DARPA [Defense Advanced Research Projects Agency], and so we 
are coordinating, and I think much of what we will do in the 
ground launch cruise missile arena will be things we will 
actually pass for consideration to the Army, but we talk about 
that on a very regular basis. So we are not stovepiping or 
railroad tracking. We are integrating.
    Mrs. Hartzler. Thank you. Thank you for doing that. It 
makes sense to have some commonality, but then you may have 
some variations that is needed depending on the theater, so it 
makes sense----
    General Murray. Ma'am, if I could add?
    Mrs. Hartzler. Yeah.
    General Murray. So it is often overlooked. So we talk about 
the missile all the time, and General Smith mentioned the 
HIMARS, and so one of the design principles of the PrSM is it 
is the same launch that we have always had, so we are not 
having to buy new launchers, and one--two missiles now fit in 
one pod as opposed to one in one pod. So we have doubled the 
load out, and we are using existing launchers, which the Marine 
Corp also has.
    Mrs. Hartzler. Great. Great. I love your approach. Keep it 
up. Thanks. I yield back.
    Mr. Norcross. So, the night court and what we went through, 
there is some things that appeared to have worked pretty well 
and things that might be a little bit challenged.
    Let me start with IVAS. Microsoft--and we have been out 
there and been briefed--seems to be quite different. I don't 
know if it is Microsoft's approach to things, if it is new 
Futures Command, but it is different, and I think we are 
hearing that from both sides.
    But, as we move down and the touchpoints which you have 
talked about, we are going to come to a decision whether or 
not, in this year's budget, requesting close to a billion 
dollars for the actual purchase for 40,000.
    Are we flying before we buy this? Are you going to be 
comfortable going right to 40,000?
    And then, General Murray, what is the magic about 40,000? 
Where does that number come from instead of saying 5,000, get 
them out to the field, and get some more real-time feedback?
    General Murray. To answer your first part, first question, 
Mr. Chairman, yes, I am very comfortable, and it is primarily 
based upon the number of soldier interactions we have had with 
IVAS. It is primarily based upon the feedback we have gotten 
from soldiers, which we never would have gotten before until we 
did the traditional way of taking it to a limited user test 
evaluation, and then we would go into some sort of EMD 
[engineering and manufacturing development]. We go into some 
sort of--and so the intent is--and the large spike in funding 
is we want to buy this out in 2 years and get the buy done.
    It is a limited number. It is not designed for every 
soldier in the Army, and I am sure the Marine Corps is looking 
at this the same way, is we talked a couple years ago about 
what we called the close combat force, and so this is designed 
for those soldiers that will be in close combat.
    We call it the close combat 100,000. It is probably going 
to end up being about 120,000 over the lifetime of the buy, but 
it is a very unique capability that will go to those soldiers 
that execute close combat at the--and we kind of define that by 
the platoon level and below. So it is more than just infantry. 
It would be some of the forward observers, some of the medics, 
et cetera.
    But, to answer your question specifically, I just think, 
you know, we have basically done probably at least a dozen LUTs 
[limited user tests] in the development of this program, and so 
I am very comfortable with where we are.
    Mr. Norcross. And, just to drill down a little bit on that, 
in the environments, the physical environments, we haven't been 
out, as I understand, in the jungle. We certainly haven't been 
up into the cold regions. How do you mitigate those factors 
into the operation of the units?
    General Murray. So we will eventually get up to the Alaska 
test range, and we will eventually get down to the Panama and 
to the--but we do have, at each of our test centers, ways of 
recreating some of those environments. So you have the option 
of either going to Alaska. I was at Natick [U.S. Army Natick 
Soldier Systems Center], and it is not--they weren't testing 
IVAS, but I was at Natick the other day and talked to some 
soldiers that were testing cold-weather gear and walked in the 
chamber with them at 20 below zero. And so we have the 
opportunity and ways of recreating those environments on our 
current test facilities and in our current lab systems.
    Mr. Norcross. So you are telling me we are going through 
that presently; we just physically haven't been to the 
different environments?
    General Murray. We will get them through that level of 
testing, yes.
    Mr. Norcross. Because, again--I think Mrs. Hartzler will 
agree--Microsoft appears to be very different. So far, the 
feedback going back and forth works very well. The step to a 
billion dollars is a very big step.
    General Murray. Uh-huh.
    Mr. Norcross. I like to refer to Reagan. We will trust, but 
we want to verify before we start doing this.
    So are you looking--you said 2 years. Is that a 20,000 per 
year?
    General Murray. No. The number will actually be much higher 
than 40,000, and so--and General Pasquarette can correct me if 
I'm wrong, but the original plan was to buy that capability out 
in 2 years, and the actual number of IVAS systems will be 
somewhere between probably 100,000 and 130,000.
    Mr. Norcross. So the 40,000 would still--that is not full-
rate production? We are not moving without any chance of----
    General Murray. Correction?
    Mr. Norcross [continuing]. Change or correction?
    General Murray. We are always trying to learn and adjust as 
we go.
    Mr. Norcross. Because, as you know, once they hit the 
field, there is varieties.
    Okay. So let me switch to the other side of the coin where 
things have been a little bit more challenged and the--our 
fighting vehicle, the OMFV.
    Going into this, it started long before Futures Command got 
into full swing, but the idea of asking our partners, giving 
them the requirements that I will call soft, general areas that 
we want to do, they made a tremendous investment by company, 
and yet here we are canceling the program. Could be for good 
reasons. We are not disputing that. We asked them to make an 
investment, and now we are switching.
    How do we keep saying to our industrial base, okay, that 
was a screw-up, your investment is not lost, we are going here? 
I mean, for any company to make those sort of investments--it 
is a risk. We understand. They knew it was going in. But it 
doesn't help our case that this is the new way that we are 
going to do things and bringing our industry along. So I would 
like to hear each of your opinions on how our partners are 
going to react to this.
    Dr. Jette, if you----
    Secretary Jette. Sir, in the first--first of all, what I 
want to say is the fundamental of OMFV hasn't changed. We 
aren't canceling the OMFV. Much like in prior systems, I know 
people reflect back to FCS [Future Combat Systems] and say, oh, 
you canceled that vehicle program, you canceled another vehicle 
program, here you go doing it again. That is not intending--
that is not our intent. Our intent is to continue with OMFV.
    When we used the MTA authorities, we knew that the 
objective was to try and move forward as quickly as possible 
and make our assessments of how we were doing rather than, 
let's say, some of our prior efforts. Comanche, you know, we 
had problems, and we just kept going along, see if we could fix 
them, fix them, fix them, and a few billion dollars a year 
later, we ended up canceling.
    So our view of this was to start out with a program that 
was MTA, go fast because that is what we understood--and I 
think that the way that the Secretary has described it: an 
unprecedented interaction with industry. The Secretary and the 
Chief both spent an entire day, just them, with CEOs [chief 
executive officers] of the corporations to get them involved.
    So we gained a great deal of their input, and I think that, 
when we finally came to the conclusion that we needed to reset, 
it wasn't that we didn't have input from industry. They told us 
what they said they could do. When we put it all together in a 
package and put it out there and said, ``Okay, now, put this 
all together in one piece,'' we ended up where we were.
    Mr. Norcross. But what was the mechanism that didn't work 
to stop this further back before they went all the way through 
the submission phase? It didn't come up at the last moment, 
obviously, but why weren't we able to intercept that based on 
the way that you are looking at this, at an earlier point, 
before one dropped out, the other one couldn't make it across 
the finish line, and we end up with one?
    Secretary Jette. So I think that was part of our assessment 
and how we are trying to move forward. If you--I have sort of 
described the new method, which is we have an interaction with 
industry phase right now. In fact, it is ongoing. Subsequent to 
this, they will submit white papers, and we will have five OEMs 
[original equipment manufacturers] that we will select, down-
select to.
    We are not going to bending metal at that point because 
that was one of the things that I think was part of the issue 
with the first one. In trying to go so fast, we asked for 
vehicle deliveries of prototypes at the very beginning. 
Instead, what we need to do is we need to keep--we need to 
lower the bar. That itself pushed people out of competition.
    Mr. Norcross. Lower the bar for investment?
    Secretary Jette. Yes, sir.
    Mr. Norcross. Okay.
    Secretary Jette. So more people could enter the competition 
and participate, get things past their boards.
    So, in this case, going to a digital design requires them 
to be professional in their engineering capabilities but 
doesn't require them necessarily to bend metal. It also gives 
us an ability to take the money that we have in the program and 
apply it to multiple vendors to keep the competition in place 
longer.
    The digital design phase isn't a stagnant design; they 
don't just give it to us, and then that is it. Each one of 
these vendors are going to continue to have an interactive 
discussion. So, as General Murray has said on the soldier 
touchpoints that we have gone through on IVAS, we are going to 
be doing virtual soldier touchpoints as well.
    In some cases, we will do mockups of certain aspects of the 
equipment to see if it is really going to work the way that we 
think it is going to work or not. So we are not spending a 
great deal of money on bending metal and soldering pieces 
together or welding pieces together, but, in fact, getting the 
knowledge that we need.
    At the end of that phase, instead of a requirement, which 
is what we have done--this is, in my view, one of the most 
innovative things that we have come out of this effort. Another 
change was that we originally said: Here is the requirement 
document. Here are the things you have to deliver. Show up.
    Mr. Norcross. Right.
    Secretary Jette. But there is a requirement document. 
Requirement documents are pretty stiff.
    Those are appropriate, and we spent quite a bit of time 
together, General Murray and I, just going over that one aspect 
of this. We have the--we don't have a really good lexicon for 
how to do this smarter. So we ended up building one. 
Requirements, in our view, at this point, are for things we are 
going to build where we are pretty specific. That is 
production.
    If we are doing a prototyping phase in MTA, we want to 
evolve the requirements as we learn through the phases of your 
prototyping. So he starts off with an operational--that is what 
is out there today, an operational characteristics. It is a 
requirement, but it is--we use the different term because it is 
not this rigid thing at the end.
    As we go through each of those phases, we will revise the 
operational and technical characteristics for each of them 
based upon what we learned. When we get into a phase, we will 
interact with the vendors that are involved and get them to do 
just what you have asked us to do: Tell us what they think that 
we haven't asked for. Let us make assessments. Let us do 
modeling and simulation concurrently. Let's do studies and 
analysis. Let's get soldier touchpoints involved here. And then 
come back at the end of that next phase for them to compete for 
the next down-select with a revised set of characteristics.
    Mr. Norcross. So, without beating this subject up, industry 
made a sizeable investment. They now hear and see what you are 
talking about now.
    Are they going to continue this and be partners, or do you 
think, instead of three, we are going to open up to six, taking 
into play some maybe original manufacturing equipment, things 
that can make it much less costly than starting from scratch? 
Where is industry with us because I know what we have heard, 
and it hasn't been pretty because of their investment.
    You know, they have felt as if, if we were going to be 
here, we could have done this many millions of dollars sooner. 
And I am homing in on this because it is a fundamental change 
of industry coming with us, not just we are telling them what 
to do. And I think it is indicative of what we are going to do. 
We just chock this one off, and do they understand that we 
now--as you would say, irreversible? We are not going to use 
that old model; this is our new model?
    Secretary Jette. Sir, last week, I met with our big--this 
kind of--big vehicle manufacturers, and I was taking a look at 
mobile protective firepower, MPF, and we--I had this discussion 
with them. I understand it. It is a sting. I also understand 
that some of the things that they have done are still viable 
and useful in the next phase.
    So we are trying to do as--be as supportive as possible in 
the process. So far, my estimate is that--that at least what I 
would consider the standard competitors are still intending to 
participate, and there are a number of others who have talked 
to the PEO already. I think he said 11 so far have talked----
    Mr. Norcross. Good.
    Secretary Jette [continuing]. To him about this. And the 
PEO--one of the other things that I think that we have really 
tried to do within my time as ASA(ALT), has been make sure, all 
the way down to the PEOs and PMs, our doors are open. If 
industry wants to come in, they just have to get a meeting with 
us, and we will do that.
    Mr. Norcross. Okay.
    General Murray. And, sir, if I could real quick, so--and I 
think the root of this is trust. I mean the trust going 
forward.
    Mr. Norcross. Yeah.
    General Murray. And I agree with you 100 percent. And I 
just want to make sure you understand this was not a quick or 
easy decision when we decided to restart the program.
    So we went through probably 2, 3, 4 weeks of discussion Dr. 
Jette and I were part of along with the Army senior leadership. 
And there was a lot of debate. The issues you are talking about 
were brought up and discussed, and ultimately the decision was 
made to restart the program. But it was not an easy decision.
    Mr. Norcross. We have learned by it. We will get back to 
some more of my questions.
    Mrs. Hartzler.
    Mrs. Hartzler. Thank you. Yeah. Good discussion here, and I 
had a couple of fairly short questions still dealing with this 
program, and then another one for--give it back to the chairman 
for a few minutes.
    But how does restructuring of the Optionally Manned 
Fighting Vehicle program affect plans for future upgrades and 
fielding of modernized Bradley infantry fighting vehicles, and 
how important is competition--well, we have kind of covered 
that. So fielding the ones that we have now, how is the 
restructuring of this program going to affect their further 
upgrades?
    General Murray. So the M2 Bradley, there is money and plans 
to upgrade to the A4 version for--I believe it is now down to 
four brigades worth of vehicles?
    General Pasquarette. Between four and five, sir.
    General Murray. Between four and five.
    So the plans before that we had, it has not impacted that 
at all. And that would be the last upgrade to the Bradley 
fighting vehicle.
    And you have heard me say this before. You have probably 
heard the Chief say it before, is the Bradley has been a 
phenomenal vehicle. Development of the Bradley started in 1963 
and delivered in 1981 was the first Bradleys we delivered. And 
we have run out of room to upgrade the Bradley.
    One of the major issues with the Bradley is power. It is an 
underpowered vehicle right now. The A4 fixes some of that, but 
we have got--and that is why we remain committed to the OMFV 
program. We have got to replace the Bradley. We have just run 
out of room to continue to upgrade it. But the plans that were 
there are still in the program.
    Mrs. Hartzler. Okay. That is good.
    And it is my understanding the Army is planning to use a 
digital engineering approach as part of the restructured 
Optionally Manned Fighting Vehicle effort.
    The Air Force, through Dr. Roper, is also using digital 
engineering and digital manufacturing for many of their 
advanced weapons systems. I am a big fan of this. I think this 
is tremendous, the way we should go. It is the way the 
commercial industry is going.
    So I have--I am just curious. Have you reached out to Dr. 
Roper and the Air Force to gain any insights that they may have 
in respect to this approach?
    Secretary Jette. So one of the fortuitous things is that 
the three acquisition executives knew each other well before we 
ended up in the same--in these seats, and so have a pretty good 
relationship.
    I have reached out to Dr. Roper on this and a number of 
other issues, and we are trying to share as best as possible 
across our programs. I will tell you that we are sharing even 
into the black world. Any of our classified programs, we have 
given full open access to, and the idea there is I don't need 
to invent anything he has already done.
    Mrs. Hartzler. Exactly. Exactly.
    Secretary Jette. So we are trying to maximize our leverage 
of each other's development work.
    Mrs. Hartzler. That is great. Very encouraging.
    And, on another topic, Dr. Jette--and this is from an 
earlier question as well. We talked about Lake City Ammunition. 
It says the Army's budget request for 5.56-millimeter 
ammunition is $68.5 million. This is a slight increase from 
fiscal year 2020. However, it appears from what we have learned 
in the last week or two that this request did not take into 
consideration the change in contractor management at Lake City, 
plus the increase in costs to produce enhanced-performance 
5.56-millimeter rounds. Based on initial estimates that I have 
seen from the contractor, the 5.56-millimeter line would need 
an increase of $37.6 million just to maintain current capacity 
and produce 310 million rounds of ammunition.
    So did the Army consider these cost increases when it 
prepared the fiscal year 2021 budget request, and what actions 
are you taking to mitigate any shortfalls in 5.56-millimeter 
ammunition production?
    Secretary Jette. Do you want to take the program piece, and 
then I will----
    General Pasquarette. I will just start on the ammunition in 
general and specifically on 5.56. We go line by line every year 
on our requirements for ammunition, ma'am, because each year we 
have a--we check what our training plan is, our training 
strategy, combat and command requirements, and actually how we 
fight--we plan on fighting in the future, and that drives the 
number.
    And then we want--we must fund everything we must have, and 
we can't afford to buy more ammunition than that amount. So I 
will--we are--I don't have the details exactly on the 5.56. I 
owe you that back.
    Mrs. Hartzler. Yeah. This is just something we heard about 
recently. It is my understanding, you know, the requirement 
hasn't changed, but the cost has, is what is needed----
    General Pasquarette. Yeah.
    Mrs. Hartzler [continuing]. To create that same amount of 
ammunition. So----
    General Pasquarette. So we will have to work that----
    Mrs. Hartzler [continuing]. The former contractor lost a 
significant amount of money, and the new one basically can't 
afford to make the amount at the same price and needs more 
money if it is to be able to fulfill that anyway. So----
    General Pasquarette. Yeah.
    Mrs. Hartzler [continuing]. If you could look at that and 
get back with us----
    General Pasquarette. Yes, ma'am.
    Mrs. Hartzler [continuing]. That sounds good. Thank you.
    Secretary Jette. Ma'am, can I just add?
    Mrs. Hartzler. Sure.
    Secretary Jette. We are taking--so I have restructured how 
we are approaching the organic industrial base within ASA(ALT). 
I have a centrally selected program manager, colonel, who is 
now basically the mayor and governor of these facilities. He 
has full control over the contracts, and we are looking at all 
the contracting methodologies.
    If I was to do a very top view of how we have approached 
these, it was all very close-in battles. ``I need a new 
doorknob for something.'' There was no prediction of where we 
needed to go, what we needed to do. Do I need more ammo 
capacity for this caliber? Do I need less? How about the 
machines? How easy are the refit, et cetera, et cetera.
    So we are taking a stem-to-stern, if I can borrow that from 
the Navy, look at just exactly how do we run these facilities 
to optimize them and not end up with a mountain of the wrong 
caliber ammo.
    Mrs. Hartzler. Very good. Thanks.
    Mr. Norcross. General Smith, understanding that the still-
pending force structure modernization priorities we spoke about 
earlier, yet we are in the middle of a budget season, explain 
to us what ``lightened the force'' means, and where is that 
taking you not only in this budget cycle, but beyond?
    General Smith. Sure. I truly do appreciate that question.
    ``Lighten the force'' means exactly that, and I will get to 
the very important why.
    Logistics is and can be an Achilles' heel of any operation. 
As we talk about pacing threat and we talk about operating in 
the Indo-Pacific, our ability to sustain ourselves inside the 
weapons engagement zone as the, quote, ``stand-in forces'' 
depends on our being able to resupply and sustain those forces 
that are, for example, within the first island chain, or, 
frankly, anywhere globally.
    Every pound that we take off, whether it is the polymer 
ammunition that we are working with the Army--we are doing .50 
caliber, the Army is doing 7.62, and the Brits are doing 5.56--
to lighten the load by 20 or so percent, to some of the battery 
packs that we are working out with Johns Hopkins that will 
lighten our battery ability, our ability to generate our own 
power, to water purification, to physically going from ceramic 
plates down to plastic plates, which we are working now on 
personnel protective equipment, to the ROGUE Fires Vehicle, 
which is a Joint Light Tactical Vehicle stripped of most of its 
armor, and that starts lightening things by thousands of 
pounds.
    Every short ton that I take off is a short ton that my 
counterpart in the Navy, Vice Admiral Jim Kilby, does not have 
to transport and move. That matters to the operational 
commander. That gets me to the fight faster. It means my 
resupply mechanisms are less--need to be less robust. It means 
I can sustain myself inside that weapons engagement zone.
    For me, that is pretty important because I personally have 
a second lieutenant son who is inside that weapons engagement 
zone now. He is forward deployed in Japan. And he is a 
logistics officer. So we talk about this. That is my back 
channel to how we are doing, if we are actually doing what we 
are supposed to be doing. I get an earful every time I talk to 
him.
    That is what ``lightening'' means. Everything from helmets 
to body armor to ammunition, to vehicles, to form factors of 
radios, batteries, power, all of that combined, sir, because 
every pound adds toward a short ton.
    Mr. Norcross. Is it also with sheer numbers?
    General Smith. I am sorry, sir?
    Mr. Norcross. Also with sheer numbers?
    General Smith. Oh, absolutely, sure. Absolutely.
    When we just--when we did some of the studies we have been 
doing with the Navy for how we will sustain ourselves, we 
actually calculated how big is an expeditionary advanced base, 
which is really a platoon-sized unit, reinforced. We can't say 
it depends or it is about this big. How many exact Marines? How 
many radios? How many corpsmen? What are they carrying.
    I have to calculate that poundage out that turns into short 
tons so I know what requirement to levy on or to request of the 
Navy so that they can transport me, and that goes to military 
sealift, which is not part of this committee, I know, but that 
is vitally important for logistics sustainment.
    We have not gotten lighter in the last 20 years. We have 
slowed the rate of weight increase, which is unacceptable. So 
our goal is I am not adding a pound to the fleet reinforce. We 
have to really reduce the weight, and we are starting to do 
that. I mean, we are actually having real results in lightening 
the individual load on the Marine and ultimately on the unit.
    Mr. Norcross. So when do you think you will reach the final 
number or goal of where you are, because----
    General Smith. Sir----
    Mr. Norcross [continuing]. We are in between budgets.
    General Smith. Sure. So, sir, we will never cease trying to 
lighten the load. I mean, every time a new polymer comes out 
that will provide similar protection, we will take it, and we 
will drop weight. We are never going to cease trying to cut 
weight. So I----
    Mr. Norcross. But the force structure itself?
    General Smith. Oh, I am sorry, sir. Force structure, the 
Commandant will start moving that. I won't get ahead of my 
Commandant, but I believe he will start to show that very soon 
after we get the 2021 budget explained, and then his full pivot 
is toward the 2022 budget. That will lay out force design, 
which are the changes in training, manning, and equipping. That 
will show which units might be morphing or changing missions.
    He will start to roll that out, I believe, this spring. So 
I am comfortable saying this spring for him.
    Mr. Norcross. So this budget includes those interim 
numbers----
    General Smith. Uh-huh.
    Mr. Norcross [continuing]. As you are going to the new----
    General Smith. Sir, it does, and the Commandant made some 
modifications to 2021--a lot of it was in training and 
education--so that, when we take a full step out in 2022, and 
then 2023 and 2024 and beyond, that, when we gain things like 
Naval Strike Missile--we call it GBASM, ground-based anti-ship 
missile. When we get that, there is a unit who is ready to fire 
it, those long-range precision fire units, artillery, are ready 
to fire that system, so that our command and control units, 
when these new technologies emerge, are actually organized to 
accept that equipment, and we don't have to then organize for a 
new technology.
    I use Moore's law a lot, sir. Moore's law: If we continue 
to accelerate the pace of change, the unit has to be able to 
absorb and utilize that equipment immediately. I can't--the 
pacing threat won't wait; I can't wait.
    So the Commandant's focus has been on training and 
educating the forces to use it. Again, I think I have a very 
smart son, but he is not trained to fire a 750-nautical-mile 
anti-ship missile. He would say he is. I would say he is not. 
You know, his mom would probably say he is, but he needs more 
training to do that.
    We have already begun that training to move from an 
industrial age to an information age training base because I am 
fortunate that I own the training and education process for the 
Marine Corps, and we started that already under General 
Berger's leadership.
    Mr. Norcross. Thank you.
    Ms. Hartzler.
    Mrs. Hartzler. Great. And I applaud your efforts to lighten 
the load, and I think the new generation--Next Generation Squad 
Weapon and the new ammunition very much will be part of that, 
and so that is really exciting.
    Dr. Jette, and I have to leave at 12:30 to catch my plane, 
so I am trying to talk fast. If you could help me, that would 
be good too. I have a couple more questions, and then I will 
leave one for the record.
    So, during Tuesday's Army posture hearing, Secretary 
McCarthy testified that the Army is coordinating its hypersonic 
development efforts with the Air Force and the Navy, and so 
could you elaborate further on these joint service coordination 
efforts specifically in regard to the Army's long-range 
hypersonic weapon? This is something I am definitely focused 
on, and I know that all the services are. It is critical we get 
this capability as soon as possible.
    So, once again, to the theme of working together, all team, 
how are you coordinating with the others? And are we 
reinventing the wheel, or are we working together and saving 
money and saving time?
    Secretary Jette. Yes, ma'am. Okay. So the Department of 
Defense has designated the Army as the executive agent. We have 
a joint program going--that is not a joint program. We have a 
cooperative program between the Navy and the Army, and with 
some aspects with the Air Force specifically.
    This program is put into my senior PEO. I have one three-
star PEO, and--Lieutenant General Neil Thurgood, who has--he 
was the deputy director of MDA [Missile Defense Agency]. He was 
a PEO of missiles in space. He has been PEO aviation. So he has 
got a great deal of background in this area, and he is now in 
charge of the material solution for hypersonics within the 
Army.
    The Navy and the Army are fully connected at the 
programmatics. They are working with the Air Force. They had 
some different issues with firing from an aircraft versus 
firing from the ground and the sea. But they are continuing to 
work through those issues.
    We are responsible for the commercial production of the 
hypersonic reentry vehicle. The Navy is responsible for 
production of the launch vehicle, 34-inch--34.5-inch launch 
body, and we will--we are doing joint testing so that we are 
not testing our piece and their piece; we are testing things 
together.
    The Navy is leading the first test. We follow by leading 
the second test, et cetera. So we are--it is truly a very well-
integrated program.
    Secretary Geurts. It can't be any more--the Navy is 
building all the rockets for the program, the Army is building 
all the glide bodies, and we are doing all the joint testing 
together. So it could not be a more closely linked program.
    Mrs. Hartzler. Great. I saw the prototype--well, the 
picture at the Army Caucus breakfast the other day, and that 
was really interesting, so I am glad to hear that.
    So, Dr. Jette and General Murray, in section 240 of the 
NDAA fiscal year 2020, it requires Secretary of Defense to 
identify the military services or agencies that will be 
responsible for the conduct of air and missile defense in 
support of joint campaigns as it applies to defense against 
current and emerging missile threats, including against each 
class of cruise missile.
    Do you know whether the Secretary of Defense has made this 
certification, and can you provide any information on how this 
certification was coordinated with the Army?
    General Murray. Ma'am, I am unaware if the Secretary has 
made that decision yet or not.
    Mrs. Hartzler. Okay. Well, okay. Very good.
    I had a couple of questions on active protection systems 
that I will submit for the record unless we have time before 
12:30, but go ahead.
    Mr. Norcross. Thank you. We are going to try to wrap up by 
12:30, so----
    Mrs. Hartzler. Okay.
    Mr. Norcross [continuing]. Obviously you can make--General 
Murray, Chief of Staff of the Army's unfunded priorities list 
includes $151 million for creation of what you are calling the 
Multi-Domain Operations Task Force. What is the documentary 
requirement from DOD or the Joint Staff for the Army to provide 
this capability under its title 10 responsibility?
    General Murray. So it is fundamentally the same demand that 
we get for just about any other capability. So it came directly 
from the combatant commanders, specifically Admiral Davidson in 
the Pacific and from General Walters in U.S. Army Europe. The 
151.4 is really an acceleration of MDTFs, Multi-Domain Task 
Forces 2 and 3, 2 in Europe and number 3 for the Pacific. So 
that would give two in the Pacific is specifically what Admiral 
Davidson has asked us to produce.
    Some of that is facilities and sustainment. Some of it is 
fleshing out an organization we call I2CEWS [Intelligence, 
Information, Cyber, Electronic Warfare and Space]. So it is 
really the heart of the Multi-Domain Task Force. It is 
intelligence. It is cyber. It is electronic warfare, and it is 
space capabilities that really enable this--the Multi-Domain 
Task Force.
    Mr. Norcross. Very good. I want you to get your questions 
in----
    Mrs. Hartzler. Okay. Very good.
    Mr. Norcross [continuing]. And we are going to wrap things 
up.
    Mrs. Hartzler. Okay. I wanted to follow up first, just 
quickly, on something the chairman said and you shared in the 
testimony, I think General Pasquarette, about there is--as far 
as risk, you went back and discovered 12 programs that, 
before--and you
re-funded those at $600 million. You said you could give us a 
list, and so I would just say, could you give us a list, yes?
    General Pasquarette. Yes, ma'am. I think it is up here with 
the staffers, but we will follow up and make sure it gets to 
your office.
    Mrs. Hartzler. Okay. The two APS [active protection 
systems] questions. So what is the Army doing to maintain 
momentum in fielding non-developmental active protection 
systems for the Abrams, Bradley, and Stryker, as we believe 
soldier protection is our number one priority and this 
capability needs to be rapidly fielded? So I guess that is the 
first question: What are you doing to maintain the momentum?
    And can the committee provide additional resources to 
assist in the fielding the remaining Army brigade combat teams 
as continued testing on the Stryker and the Bradley platforms, 
so----
    Secretary Jette. Do you want to take the piece----
    General Pasquarette. Well, we are--our leadership has given 
us direction that we must head down these paths for our three 
major systems that we are concerned about: Abrams, Bradley, and 
Stryker. And, with Abrams, thanks to the support of Congress, 
we have committed to four sets of that kit. We are actually 
mounting the A kits now. And one of those, we are going to 
mount--a company, I believe during Defender Europe, is going to 
mount one of the B kits as a part of that operation to validate 
the means to do that.
    Stryker, on the other end of the spectrum, it is a tough 
science project. The ability to defeat a round with an active 
protective system to the degree that doesn't allow penetration 
with the secondary effects of what is left of the round coming 
at it, we are still working with industry and the S&T world on 
how to do that.
    In the middle of that is Bradley, where we have--looking at 
a similar program similar to Trophy on the Abrams. We are 
testing that right now. I defer to Dr. Jette about how that has 
gone. But we want to move forward with--it is called Iron Fist 
Decoupled is the system, and we are working to see if that is 
something that will work with the Bradley or not. Sir.
    Secretary Jette. So the light system is continuing to be 
tested to determine whether or not it actually performs the 
manner we want it to perform for the Bradley.
    We have not stopped and said, ``Well, this is the 
solution.'' In fact, we are looking for additional APS systems 
and approaches to systems.
    Mrs. Hartzler. Is that been put out there for industry 
asking for----
    Secretary Jette. Yes. And in a different forum, I can show 
you some of the successes we have had, and they are 
significant. They, I think, will lead us to some different 
views of how we execute APS.
    I believe that we have absolutely a need to find an 
alternative way to protect these vehicles from the type of 
fires that they can have to deal with. I have already got an 
80-ton tank. I can't make it any heavier, and I can't make 
light armored vehicles weigh 80 tons. So we are going to have 
to come up with a better method, and we have several 
technologies which we are incorporating into our OMFV method as 
part of sprints--sprints are short demonstrating technology 
cycles--which lead to the development of them over a period of 
time.
    Mrs. Hartzler. That might be a good classified briefing 
maybe to learn about some of the new systems. Maybe it would 
be. Okay.
    Does the Army have sufficient APS capability to protect all 
armored brigade combat teams in multiple theaters? So I believe 
you have purchased four?
    General Murray. Yeah. Not currently, ma'am.
    Mrs. Hartzler. Okay. And, finally, what risk is the Army 
incurring if it doesn't pursue other proven non-developmental 
APS technologies for current ground platforms like Bradley and 
Stryker? Well, it sounds like you are pursuing it.
    Secretary Jette. We are.
    Mrs. Hartzler. Yeah.
    Secretary Jette. And so one of the--my perspective on this 
is that we pursued things to try and get them done quickly, and 
we looked at NDI, non-developmental items. APS is a unique 
category of a non-developmental item.
    If you put a number of different companies in, they come 
out with their products, they bring it there, and they are 
going to try and sell it to you, and you don't choose one of 
them because you are going to choose one; maybe later a second. 
If you don't win the competition, you have no place to go with 
the product. So they are all governmentally funded. And we 
didn't have--we haven't had a governmentally funded program for 
APS since FCS.
    So I believed that one of the things we needed to do was 
start opening the aperture and look for those things which we 
could invest in the nascent stages of these APS systems, or all 
we are going to ever get are the ones that are already 
developed by foreign governments or already exist in place. And 
that is one reason why there is not really a lot of NDI options 
laying on the table, and we just need to test them. We are 
going to have to do some work in development to get where we 
need to go.
    Mrs. Hartzler. Do you need more money to do that from us?
    Secretary Jette. I don't think we need it this year. I am 
going to look at 2022 when we start submitting it next year.
    Mrs. Hartzler. All right. I look forward to continuing the 
discussion on this.
    Thank you very much. This has been a great hearing.
    Mr. Norcross. Thank you.
    Let me just wrap this up, sort of beginning or ending where 
we began. We talked about the shift to modernization, National 
Defense Strategy, and in any of the selections that were made, 
either to cancel a legacy or enter into one of our six 
priorities, you are measuring against the threat as defined in 
National Defense Strategy.
    This year, there are 12 items that the Army had previously 
canceled or reduced that we are now going to continue. So that 
gets to the heart of my first question: Is that evaluation--
obviously took place here. Not each of the 12 items. Can you 
give us a little synopsis or a story what made you reflect back 
and make that change to continue it? Was it the industrial 
base? Has the threat changed? What exactly caused this to 
change in the Army?
    General Pasquarette. I can give an example of one system 
called UCS, Unified Command System. There was guidance to try 
and be more efficient with that. It is something every State is 
supposed to have in the National Guard in case of an emergency 
to stand up quickly, to react to that crisis.
    And we were looking--the direction from the leadership was 
see if we can't consolidate it. Why do we need 54 of these? Can 
we have 16 regionally, and you go get it when you need it?
    Upon reflection, because of the demand, the requirements 
out there in the National Guard to react immediately, the 
analysis was done. You can't go from Texas to Oklahoma to go 
get your piece of kit to come back to Texas for the emergency.
    So it was guidance to look at this. We took the dollars 
initially thinking it would work out. Upon analysis, we showed 
the leadership that you have to have it there to meet the 
requirement, and so there was an agreement by the--decision by 
the Secretary and the Chief that, yes, let's put money back in 
it. That is one example.
    Mr. Norcross. Can you give me a hardware example, something 
where a hardware piece of equipment might have been changed?
    General Pasquarette. Not off the top of my head, Mr. 
Chairman. There is--I can't--maybe----
    Mr. Norcross. Either industrial base collapses or--just 
trying to get a feel for----
    Secretary Jette. Let me make sure I am giving you the right 
answer here. Fuel trucks is one of them. We did an assessment 
based upon our initial assumptions in particular theaters of 
what our operational needs would be. That went with the set of 
assumptions we had in the analysis that generated the decrement 
in the budget.
    Over the next year, we went back and reviewed all of the 
decisions we had made and found that one of the assumptions was 
false, and what that did was it drove us to coming back and 
saying: This assumption can't be accomplished. We need to go 
back and relook our fuel truck requirements, and then we 
decided to put the fuel trucks back in.
    General Pasquarette. I would say another one was crypto 
modification. We realized we took money out of it, and then, 
when we looked at it, we were not going to be in compliance 
with the NSA [National Security Agency] guidance for our 
systems to operate, and so, again, that was a decision made. 
Upon reflection and analysis, feedback, in order to be 
compliant, we had to put those dollars back in.
    That is just another example, sir.
    Mr. Norcross. So is there a formal process to reevaluate 
all the programs, or is it brewing up, I would say, from those 
that are in those programs saying, ``Wait, you didn't take this 
into consideration,'' be it an industrial base or a threat?
    General Murray. It is both. And so we get a significant 
amount of input, because the things we are looking at as we go 
through the program review, which we are going through right 
now, really starts at the low levels and then works its way 
through colonels and one-star generals and two-star generals 
and three-star generals, and eventually ends up with Dr. Jette 
and I. So it gets looked at at multiple points.
    And there are objections raised just about every one of 
them in terms of--you know, eventually, it becomes a risk 
decision. And another thing I would say that has added to some 
of the changes is people often focus on the ``31+3,'' and that 
is the only thing that the Army's investing in. It is really 
more holistic than that.
    So we look at the enablers for those 31+3s, and fuel trucks 
are a great example. I mean, I can build the best tactical 
vehicle in the world, and if I can't get fuel to it, it is not 
going to good for much more than about a half a day. So, as you 
look at enablers, they are not part of the 31+3, but they are 
the critical enablers that go along with the 31+3.
    Mr. Norcross. You can imagine, with any budget that comes 
out, my colleagues look down the list and say, oh, that is 
mine.
    We want to make sure that, when we address their questions 
that they are based on reliable set of figures that is 
consistent across the program and not just you happen to be in 
the right state at the right time for the right thing. And that 
is the overarching theme because we will be with you. But when 
we question you on--drill down on some of these subjects, it is 
so I can answer them and look them in the eye and say: We are 
going to support their decision because, A, they have done 
this, they have reviewed it, and it is the right thing to do.
    So, when we get these questions to you, it is so 9 times 
out of 10 we can address questions.
    With that, seeing I am the only one left, I want to thank 
you for your time, particularly working with us during the 
votes.
    And we are adjourned.
    [Whereupon, at 12:33 p.m., the subcommittee was adjourned.]

     
=======================================================================

                           A P P E N D I X

                             March 5, 2020

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 5, 2020

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 5, 2020

=======================================================================

      

                  QUESTIONS SUBMITTED BY MRS. HARTZLER

    Mrs. Hartzler. The Army's budget request for 5.56mm ammunition is 
$68.5 million. This is a slight increase from FY20; however, it appears 
that this request did not take into consideration the change in 
contractor management at Lake City, plus the increase in cost to 
produce enhanced performance 5.56mm rounds. Based on initial estimates 
that I have seen from the contractor, the 5.56mm line would need an 
increase of $37.6 million just to maintain current capacity and produce 
310 million rounds of ammunition. Did the Army consider these cost 
increases when it prepared the FY21 budget request and what actions are 
you taking to mitigate any shortfalls in 5.56mm ammunition production?
    Secretary Jette. The Army did anticipate and account for estimated 
unit price increases pending the change in contractor management at 
Lake City, starting with FY20 Unit Costs (UC) when the new contract 
became active. Unit price increases specifically for enhanced 
performance 5.56mm rounds incorporated normal expected inflation. 
Although quantities would be reduced as a result of a higher UC 
increase than expected prior to the selection of new contract 
management, the Army has sufficient stockpiles of 5.56mm to address the 
seeming shortfall. The Army's 5.56mm requirements are complemented by 
other Service procurements as well as substantial yearly Foreign 
Military Sales (FMS) cases. The Army is confident that with the 
combination of all 5.56mm FY21 requirements, the current inventory 
posture, and the fact that the contract has firm fixed pricing as low 
as 150M/year, that Lake City will maintain its current capacity.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. Dr. Jette can you please provide a detailed report of 
the Army's RDT&E spending related to IFPC over the past 5 years, 
including planned spend for FY20? We would like to understand why there 
is no plan to test Iron Dome with U.S. systems this year.
    Secretary Jette and General Murray. At your request, the table at 
the bottom depicts the Army Research, Development, Test and Evaluation 
(RDT&E) expenditures for Indirect Fire Protection Capability (IFPC) 
from Fiscal Year 2016 (FY16) to FY20. We will gladly provide you 
additional details under separate cover.
    The IFPC program has changed a great deal during the past 5 years 
as a result of testing and changing of operational requirements. Over 
FY16-19, the Army was developing the original IFPC capability to 
address cruise missile, short range air defense and Counter Rocket, 
Artillery, and Mortar defense missions. These efforts included work to 
integrate the AIM-9X missile with the Multi-Mission Launcher (MML), as 
well as exploration of other, lower cost, interceptors through the 
Expanded Mission Area Missile (EMAM) program.
    The Army's Acquisition Strategy shifted during 2018 and 2019 due to 
both critical design issues and Congressional direction to field an 
interim Cruise Missile Defense (CMD) capability. The MML and 
interceptor experienced engineering limitations in handling payloads 
and reloading procedures which proved untenable. The Army took lessons 
learned from this experience and in FY19, implemented a revised 
strategy for the enduring IFPC solution, which is expected to alleviate 
these issues. We are taking a competitive approach with industry to 
first demonstrate candidate launcher-interceptor solutions through 
modeling and simulation, system integration lab testing, and then a 
live fire shoot-off at White Sands Missile Range with Cruise Missile 
and Unmanned Aircraft Systems targets. As the Army executes this 
strategy, we will field an interim CMD capability, Iron Dome Defense 
System-Army (IDDS-A), in FY21.
    In answer to your question about testing, the Army does plan to 
test Iron Dome in FY20 with U.S. specified system software and hardware 
adaptations. In June 2020, a System Integration Lab is scheduled to 
test the U.S. software by executing scenarios to assess system 
performance. In August 2020, mobility testing of the Iron Dome prime 
movers adapted to U.S. vehicles (HEMTTs) is planned to be conducted in 
Israel prior to delivery of the first Battery to verify safety and 
performance requirements. Then in September 2020, live fire testing is 
expected to occur in Israel on the adapted Iron Dome system using U.S. 
provided cruise missile surrogate targets. Finally, in FY21 the Army 
plans to execute interoperability and performance testing at White 
Sands Missile Range, New Mexico, using the first Iron Dome Battery with 
U.S. Army Soldiers.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    .epsMr. Lamborn. General Murray, you raised concerns about the 
ability to integrate Iron Dome in the U.S. air defense systems. It is 
my understanding the U.S. Marines were able to do so with CAC2 and the 
G/ATOR radar. Can you please:
    a) Explain why the Marines were able to do so and the Army was not, 
including in the form of using these as an interim capability?
    b) Provide a list and details on all contracts signed with Israel, 
Raytheon and/or Rafael to attempt to integrate Iron Dome with: Sentinel 
A3; Sentinel A4, IBCS, and/or Link 16.
    c) List and describe all other non-contractual efforts to integrate 
with Sentinel A3; Sentinel A4, IBCS, and/or Link 16, including whether 
they use outside vendors or analysts.
    General Murray. The Army observed the USMC successfully demonstrate 
initial ``interoperability'', but not ``integration,'' of an Iron Dome 
launcher and TAMIR interceptor with the USMC system Ground/Air Task 
Oriented Rader (G/ATOR). Interoperability links systems together and 
allows systems to exchange data via a common data network. This 
provides situational awareness and allows engagement coordination and 
de-confliction. Interoperability does not optimize performance across 
disparate systems. Like interoperability, integration links multiple 
systems together. However, with integration the connection is much more 
robust and allows the use of data to go beyond coordination and de-
confliction and allow optimization of components (e.g., Sensors and 
shooters) to maximize effectiveness and/or efficiency. Integration is 
the requirement for IFPC Inc 2 components, as it is for all future Army 
Air Defense capabilities, to become part of the tiered and layered air 
defense.
    The USMC demonstrated the ability to pass G/ATOR tracking data to 
the Iron Dome system using the USMC mission command node (Common 
Aviation Command and Control System, or CAC2S), through a cross-domain 
solution (security filter), then to a surrogate Iron Dome mission 
command node (a surrogate Battle Management and Weapon Control (BMC) 
system) for the engagement calculations before sending the mission to 
the launcher and interceptor. Additionally, the USMC employed the 
Sensor in a sectored, non-rotating mode, which does not meet the Army's 
360 degree requirement for cruise missile defense. The USMC 
demonstration has informed Army contracting activities planned for 
Fiscal Year 2020 (FY20), in which the Army will assess the path forward 
for Iron Dome's BMC ``interoperability'' with Integrated Battle Command 
System (IBCS) for the interim systems.
    This approach will require a supplier to mitigate cybersecurity 
risk, and IBCS will be limited to providing Fire Direction, not Fire 
Control, to the Iron Dome system. This assessment activity achieves 
interoperability with Iron Dome, however, this type of interoperability 
does not meet the enduring IFPC requirement. The Army needs to be able 
to execute fire control from IBCS, without using additional Command and 
Control systems that the Army has to sustain over time.
    b) Provide a list and details on all contracts signed with Israel, 
Raytheon and/or Rafael to attempt to integrate Iron Dome with: Sentinel 
A3; Sentinel A4, IBCS, and/or Link 16.
    The Army awarded two contracts related to Iron Dome components and 
their integration with Sentinel and the Integrated Air and Missile 
Defense Battle Command System (IBCS). The first was part of the 
Enhanced Mission Area Missile (EMAM) program that was developing 
additional missiles for use in the IFPC system, which included the 
Sentinel A3, IBCS, and the Multi Mission Launcher (MML). The second was 
for the adaptation and procurement of Iron Dome Defense Systems for the 
U.S. Army (IDDS-A), which will undergo performance testing and 
interoperability testing with IBCS.
    The Army awarded contract W15QKN-14-9-1001 to Raytheon Company 
(teaming with Rafael) to integrate a SkyHunter interceptor (U.S. 
variant of TAMIR) with a U.S. surrogate launcher and IBCS on June 4, 
2018. The contract value was $2,597,398. Raytheon/Rafael was unable to 
provide necessary source code and high fidelity models and simulations 
to continue with the effort in April 2019. Funding for EMAM ended in 
FY19.
    The Army awarded contract W31P4Q-19-D-0024 to the Israeli Ministry 
of Defense (IMOD) for IDDS-A on August 1, 2019. To date, the Army 
awarded $287,510,625 to adapt the Iron Dome System to the IDDS-A 
configuration and to procure two IDDS-A batteries plus an additional 48 
TAMIR interceptors. The IMOD will deliver the first IDDS-A battery by 
30 September 2020 for shipment to the U.S. no later than December 2020. 
The IMOD will deliver the second IDDS-A battery and additional 
interceptors by December 31, 2020 for shipment to the U.S. There are 
additional contract options the Army could execute if required for 
further adaptation work and logistics support. In FY21, the Army will 
execute interoperability and performance testing at White Sands Missile 
Range, New Mexico, using the first Iron Dome Battery with U.S. Army 
Soldiers
    c) List and describe all other non-contractual efforts to integrate 
with Sentinel A3; Sentinel A4, IBCS, and/or Link 16, including whether 
they use outside vendors or analysts.
    The February 25, 2020, ``Enduring Indirect Fire Protection 
Capability Increment 2 (IFPC Inc 2) Report to Congress'' describes in 
detail the interaction and assessments the Army executed in 
coordination with the Israeli Missile Defense Organization (IMDO) 
concerning Iron Dome.
    In FY19, the Army generated a number of design reference missions 
for analysis through high fidelity modeling and simulation to determine 
if the potential missile systems have acceptable performance against 
the threats. Modeling tools included the Army Integrated Air and 
Missile Defense (AIAMD) simulation and Sentinel Digital Simulation 
(SDS) for Sentinel A3, as well as SDS runs with updated Sentinel A4 
specifications. In keeping with prioritized threats, the design 
reference missions included simulated engagements of 1) maneuvering and 
non-maneuvering subsonic CM and UAS, and 2) Rocket, Artillery and 
Mortar, or ``RAM.''
    To support this assessment the Army executed several Technical 
Interchange Meetings (TIM) culminating in two major exchanges. From 23-
25 September 2019 the U.S. Government hosted representatives from the 
IMDO and Rafael Advanced Defense Systems at Redstone Arsenal. An 
objective of the meeting was to understand and agree to requirements 
for data to support integration into U.S. AMD architecture, as well as 
potential componentization of the systems launcher and TAMIR 
interceptor for Enduring IFPC requirements. A joint memorandum between 
the Army and IMDO agree upon the transmission of Iron Dome engineering 
technical data no later than October 31, 2019.
    IMDO transmitted Iron Dome System data on October 31, 2019. The 
data included engineering information (e.g., architectural 
documentation, sequence diagrams, and system models); however, it did 
not include mission command and interceptor component level source 
code, algorithms, or mathematical models necessary to successfully dis-
integrate Iron Dome components and then integrate the Iron Dome 
launcher and missile into the U.S. Army's IBCS.
    During the second major data exchange, the Army and representatives 
from IMDO and Rafael Advanced Defense systems met at Redstone Arsenal, 
Alabama from November 12-14, 2019. During this TIM, Army subject matter 
experts (SMEs) reviewed technical data and assessed the feasibility of 
integrating Iron Dome components in the Army's AMD architecture. Army 
SMEs assessed a high risk of integration with Iron Dome System into the 
AIAMD architecture due to performance dependencies between the BMC, 
Multi-Mission Radar (MMR), and TAMIR interceptor.
    The Army's analysis concluded the Iron Dome launcher and TAMIR 
interceptor's performance is highly reliant on the BMC and the MMR. For 
Iron Dome's launcher and TAMIR interceptors to be a viable option for 
Enduring IFPC Inc 2, the BMC and MMR functions require transferring 
into the Army's IBCS. Additionally, Technical Interchange Meetings 
concluded the IMDO does not currently possess component-level models 
(e.g., missile seeker model, missile guidance and control model, 
missile-fusing model, Six-Degrees of Freedom (6-DoF) IFS) needed to 
verify launcher and missile performance within the AIAMD architecture. 
The tightly coupled nature of Iron Dome components within the Iron Dome 
architecture and a lack of sufficient technical data requires further 
development, prototyping, and integration to provide a potential 
Enduring IFPC Inc 2 capability.
    The Army's FY19 analysis concluded further performance evidence is 
required from U.S. Industry and IMDO. The Army's Enduring IFPC Inc 2 
competitive approach strategy moving forward requires industry to 
demonstrate integration through a successful kill-chain live fire 
demonstration, which reduces program risk and provides required 
performance data for analysis, and eventual contract award to one 
vendor.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. GALLEGO
    Mr. Gallego. I understand that there have been some problems with 
the Amphibious Combat Vehicle identified during operational testing. 
Can you outline what the problems are and how they are being mitigated?
    Will these problems affect planned full-rate production for ACV in 
the coming months?
    Secretary Geurts. Director Operational Test and Evaluation (DOT&E) 
identified four primary issues in their Operational Assessment report: 
Issue 1: Investigate options for preventing damage to steering/
suspension when encountering battlefield debris, such concertina wire. 
Mitigation: The ACV operator vision aid system has been improved to 
provide ACV unit enhanced situational awareness with respect to 
tactical land and water movements in both day and night environments, 
which will significantly improve the ability of the vehicle crew to 
navigate around or otherwise avoid battlefield debris. Issue 2: Improve 
ACV reliability by implementing corrective actions on Low Rate Initial 
Production (LRIP) vehicles to reduce the failure rate and maintenance 
demand. Mitigation: 43 design modifications have been implemented into 
the LRIP design to improve system reliability. Effectivity of these 
modifications will be assessed during planned Reliability Qualification 
Testing and Initial Operational Test & Evaluation. Issue 3: Resolve 
vision block and Remote Weapon System (RWS) sight freezing and fogging 
issues in extreme cold weather environments. Mitigation: LRIP test 
articles are equipped with improved vision blocks. Additional testing 
will be conducted to assess improvement in the area of extreme cold 
environments. Proper preventive maintenance procedures were developed 
to combat RWS sight freezing issues noted during previous testing. 
Issue 4: Investigate the development of a cold weather special mission 
kit to keep Marine crews warm when operating with hatches open in 
extreme cold. Mitigation: The Program Office will investigate options 
for development of a cold weather special mission kit while other 
engineering changes are completed. The Department does not anticipate 
any of the issues identified in the DOT&E report to have an adverse 
impact on the Full Rate Production decision.
    Mr. Gallego. As I understand it, the 1st Marine Division at Camp 
Pendleton will be the first to receive ACV. When is that delivery 
scheduled?
    Secretary Geurts. Company D, 3rd Assault Amphibian Battalion, 1st 
Marine Division, Marine Corps Air-Ground Combat Center, 29 Palms, CA 
will be the first to receive ACV. Initial delivery to one platoon is 
scheduled for the fourth quarter of FY 2020. The fielding, 
provisioning, and training of this platoon will achieve Initial 
Operational Capability for the ACV Family of Vehicles.
    Mr. Gallego. What is the wider delivery plan for ACV for the fleet? 
Which units will receive ACV, and when?
    Secretary Geurts. The ACV delivery plan is prioritized to both the 
Supporting Establishment and the 1st Marine Division during the initial 
fielding of vehicles. This will ensure a robust training curriculum is 
established early for operators and maintainers while simultaneously 
delivering capability to the fleet. Subsequent fielding to 2d Marine 
Division, Camp Lejeune, 4th Marine Regiment, Okinawa, and 3d Marine 
Regiment, Hawaii, will follow, as priorities for the USMC are 
continuously evaluated. The 4th Marine Division, Marine Forces Reserve 
and the Maritime Prepositioning Force are scheduled to complete ACV 
fielding last. The ACV delivery plan will however, require re-
evaluation, following the completion of USMC Force Design to Force 
Development planning.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. MITCHELL
    Mr. Mitchell. Dr. Jette and General Murray, what the specific 
impacts to the schedule and costs for delivering the Optionally Manned 
Vehicle caused by the decision to cancel the original solicitation for 
prototypes? What are the changes being made to the overall requirements 
and capabilities of the vehicle?
    Secretary Jette and General Murray. Specific impacts to the 
schedule and cost of the Optionally Manned Fighting Vehicle (OMFV) 
program are evolving as we revisit requirements and the acquisition 
strategy. On January 16, 2020, the Army decided to cancel the OMFV 
solicitation because we determined we were asking for a great deal of 
capability on a very aggressive schedule. The solicitation included a 
request for early physical bid samples from industry and a First Unit 
Equipped (FUE) date of Fiscal Year 2026. The Army is still determining 
the new FUE date. The new schedule will reduce risk by providing more 
time for preliminary and detailed design phases prior to entering into 
a build and test phase with physical prototypes. Additionally, the Army 
expects these efforts will increase competition.
    Going forward, the Army has begun with a broad set of 
characteristics for the OMFV, and will refine them into requirements 
through a cooperative and iterative process with industry. In late 
February 2020, the Army released nine broad characteristics for 
industry feedback: survivability, mobility, growth, lethality, weight, 
logistics, transportability, manning, and training. The Army will 
conduct extensive engagement with industry to determine their ability 
to meet the desired characteristics and what trades may be necessary, 
and will use industry feedback and performance trades analysis to 
gradually refine the desired characteristics. This refinement will 
occur in conjunction with a phased acquisition plan that seeks to 
maintain competition. Digital designs, modeling and simulation, and 
Soldier Touchpoints will inform and sharpen the characteristics for 
prototyping and testing.
    Mr. Mitchell. Dr. Jette and General Murray, what is the plan for 
testing, developing, and/or procuring active protection systems on the 
Stryker and Bradley platforms moving forward? What is the current 
status of testing?
    Secretary Jette and General Murray. Both the Stryker and Bradley 
platforms participated in an expedited effort to identify mature, non-
developmental hard kill active protection systems (APS) for platform 
integration and characterization activities.
    For the Stryker, the Army tested and determined the Iron Curtain 
system was not immediately suitable for the platform. The Army then 
conducted a follow-on demonstration with two systems: the Rafael 
Trophy-Medium Variant system, and the Rheinmetall Active Defeat System. 
While both systems demonstrated the ability to intercept threats, 
neither system is suitable for the Stryker platform. However the Army 
believes there is value in collecting additional data from these 
systems to inform future application of APS for Stryker and other 
ground combat platforms. The Army plans on conducting follow-on testing 
to collect ballistic data, to include residual penetration data through 
a vehicle agnostic effort beginning in 1st Quarter, Fiscal Year 2021.
    For the Bradley, the Army selected Elbit's (formerly Israeli 
Military Industries) Iron Fist-Light Decoupled (IF-LD) system for an 
urgent materiel release based on the initial characterization results. 
Funding adjustments to the Bradley program has now resulted in the Army 
prioritizing available funding for the A4 modernization effort over 
procurement of IF-LD systems. Pending additional funding to support 
urgent fielding, the expedited effort is delayed.
    Additional protection capabilities being considered for the Stryker 
platform, and other ground combat platforms include: laser warning 
receiver integrated with the Modular APS Controller and Framework; soft 
kill APS and passive signature management that impacts the infrared 
signature of the vehicle.
    Mr. Mitchell. Dr. Jette, I have a question about the Army's plans 
for its developmental, opposed-piston Advanced Combat Engine (ACE). In 
December of last year, the Army successfully conducted a proof of 
concept test of the ACE engine, an engine that has been in development 
since 2012, as an internal alternative to the non-developmental combat 
vehicle engines available in the national defense industrial base. Yet, 
experts predict the continued development of the engine could cost an 
additional $100 million over several years to have an engine ready for 
Low Rate Initial Production. I understand there are domestically 
manufactured diesel engines designed for use in combat vehicles that 
are fully developed to military specifications. These engines, 
available in the national defense industrial base, have been selected 
for use in a range of Army priorities, including the Optionally Manned 
Fighting Vehicle, Mobile Protected Firepower, and the Armored Multi-
Purpose Vehicle.
    Will you please explain why the Army is pursuing the development 
its own diesel engine while fielded and proven engines are available 
from private industry?
    What gap is the Army hoping to fill with the Advanced Combat 
Engine?
    What applications does the Army believe the ACE can have in the 
future? Could it include any of the vehicles under development by the 
NGCV CFT?
    Does the Army see a risk of weakening the defense industrial base 
should it develop, productionize, and compete its engine for future 
land defense platforms?
    How does the Army reconcile the development of its engine with its 
obligations under 10 USC 2377 to forego its development of a new item 
when a comparable item can be readily purchased in the marketplace?
    Secretary Jette. The Army is pursuing an Advanced Combat 
Powertrain, which includes the Advanced Combat Engine (ACE), due to the 
need for combat vehicle platforms with protection from near-peer threat 
environments to maintain pace with the force. The driving need for this 
development is for a 45-60 ton (T) combat platform to maintain pace 
with the force and provide electrical power to support protection, 
lethality and communications systems as well as provide propulsion and 
thermal management to protect the signature under armor in the volume 
of current combat vehicle powertrains. A market survey and analysis 
showed available combat powertrains are not sufficient to meet these 
requirements, and engines developed for commercial applications were 
not sufficient for military operating conditions without further 
development. The Army used a competitive acquisition strategy to 
develop a new powertrain to meet these requirements in 2015, which 
resulted in a new combat vehicle engine design that was demonstrated in 
December, 2019. The Advanced Combat Powertrain, including the ACE, 
started development in 2015 with the objectives to improve the power 
density by 1.5 to 2.0x, increase fuel efficiency by 25 percent, 
increase electrical power available by 10x, increase mobility (range by 
an additional 100 miles, speed on grades by 50 percent and accelerate 
30 percent faster), and improved thermal management, with the Bradley 
powertrain as the baseline.
    What gap is the Army hoping to fill with the Advanced Combat 
Engine? The Advanced Combat Powertrain, including the ACE, addresses a 
gap for mobility of combat vehicles that weigh more than 45 tons.
    What applications does the Army believe the ACE can have in the 
future? We are assessing its continued value and industrial viability. 
The ACE may have application to new platforms or upgrades to existing 
combat systems that result in system weights of 45T-60T. The engine 
architecture is scalable, allowing growth to cover systems up to 80T. 
The current application being explored is the Optionally Manned 
Fighting Vehicle. The OMFV is expected to be equal to or larger than 
the current Bradley Family of Vehicles, and the Army desires room for 
future growth which would require a larger (1000 horsepower) engine 
with much greater electrical power generation but in as small a package 
as possible.
    Could it include any of the vehicles under development by the NGCV 
CFT? The Advanced Combat Engine, may have application to the Optionally 
Manned Fighting Vehicle and the Optionally Manned Tank.
    Does the Army see a risk of weakening the defense industrial base 
should it develop, productionize, and compete its engine for future 
land defense platforms? There is no anticipated impact to the defense 
industrial base as a result of the engine development program. The ACE 
was developed in partnership with Cummins, who currently manufactures 
combat vehicle engines. If the Advanced Combat Engine goes into 
production, it must be produced by an industrial base partner. The Army 
does not plan to manufacture the engine.
    How does the Army reconcile the development of its engine with its 
obligations under 10 USC 2377 to forego its development of a new item 
when a comparable item can be readily purchased in the marketplace? The 
Army performed a market survey and analysis showing available combat 
powertrains were not sufficient to meet the required mobility for 
combat vehicles greater than 45 tons, and engines developed for 
commercial applications were not sufficient for military operating 
conditions without further development. The Army used a competitive 
contracting strategy in 2015 to develop a new powertrain with a target 
of 1000 horsepower in the volume of the current Bradley's powertrain to 
meet these requirements, which resulted in a new combat vehicle engine 
design that was demonstrated in December 2019.

                                  [all]
</pre></body></html>
